<html>
<title> - HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2007 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-54]

 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2007

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

                           BUDGET REQUEST FOR

                       MISSILE DEFENSE AGENCY AND

                   BALLISTIC MISSILE DEFENSE PROGRAMS

                               __________

                              HEARING HELD

                             MARCH 9, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  


                    U.S. GOVERNMENT PRINTING OFFICE
28-987                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     STRATEGIC FORCES SUBCOMMITTEE

                    TERRY EVERETT, Alabama, Chairman
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
TRENT FRANKS, Arizona                JOHN SPRATT, South Carolina
MICHAEL TURNER, Ohio                 LORETTA SANCHEZ, California
MIKE ROGERS, Alabama                 ELLEN O. TAUSCHER, California
JOE SCHWARZ, Michigan                RICK LARSEN, Washington
CATHY McMORRIS, Washington           JIM COOPER, Tennessee
GEOFF DAVIS, Kentucky
               Bill Ostendorff, Professional Staff Member
                Bob DeGrasse, Professional Staff Member
                    Katherine Croft, Staff Assistant

                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, March 9, 2006, Fiscal Year 2007 National Defense 
  Authorization Act--Budget Request for Missile Defense Agency 
  and Ballistic Missile Defense Programs.........................     1

Appendix:

Thursday, March 9, 2006..........................................    37
                              ----------                              

                        THURSDAY, MARCH 9, 2006
FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
     MISSILE DEFENSE AGENCY AND BALLISTIC MISSILE DEFENSE PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Chairman, 
  Strategic Forces Subcommittee..................................     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Strategic Forces Subcommittee..........................     2

                               WITNESSES

Dodgen, Lt. Gen. Larry J., Commanding General, U.S. Army Space 
  and Missile Defense Command, and U.S. Army Forces Strategic 
  Command, U.S. Army.............................................     9
Duma, David W., Director, Operational Test and Evaluation, U.S. 
  Department of Defense..........................................    11
Flory, Hon. Peter C.W., Assistant Secretary of Defense for 
  International Security Policy..................................    15
Obering, Lt. Gen. Henry A., III, Director, Missile Defense 
  Agency, U.S. Air Force.........................................     4

                                APPENDIX

Prepared Statements:

    Dodgen, Lt. Gen. Larry J.....................................    71
    Duma, David W................................................    90
    Flory, Hon. Peter C.W........................................    96
    Obering, Lt. Gen. Henry A., III..............................    46
    Reyes, Hon. Silvestre........................................    41

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    Mr. Everett..................................................   111
    Mr. Reyes....................................................   113
    Mr. Rogers...................................................   113
 FISCAL YEAR 2006, NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
    FOR MISSILE DEFENSE AGENCY AND BALLISTIC MISSILE DEFENSE PROGRAM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                           Washington, DC, Thursday, March 9, 2006.
    The subcommittee met, pursuant to call, at 1 p.m., in room 
2212, Rayburn House Office Building, Hon. Terry Everett 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM 
        ALABAMA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. The meeting will come to order.
    Thank you all for being here.
    Somewhere I have an opening statement. I will get to it.
    The subcommittee meets today to receive testimony on the 
Department of Defense fiscal year 2007 budget request for 
missile defense programs. Again, I thank you all for coming.
    I welcome Lieutenant General Obering, Director of the 
Missile Defense Agency (MDA); Lieutenant General Dodgen, 
Commanding General, U.S. Army Space and Missile Command; Mr. 
Duma, Director of Operational Test and Evaluation in the 
Department of Defense; and Mr. Flory, Assistant Secretary of 
Defense for International Security Policy.
    Thank you again for being here. We have a lot of ground to 
cover today, so I would ask each of you to limit your opening 
statement to about five minutes, and your entire statement will 
be made a part of the permanent record.
    I will briefly comment that world events continue to 
highlight the security threats posed by the proliferation of 
missile technology and nuclear materials. The news concerning 
potential threats from Iran and North Korea is no better this 
year than it was last year.
    As a Member of both the House Armed Services Committee and 
Intelligence Committee, along with my colleague Mr. Reyes, I 
firmly believe that we have a responsibility to press forward 
with fielding those missile defense elements for our nation's 
defense.
    General Obering, I would like to highlight a few specific 
areas that I am interested in hearing about today: The impact 
of funding reductions for the fiscal year 2007 through 2011 
Missile Defense Agency programs that were made late last year.
    I was very pleased with your response to the independent 
review team's finding last year following several Ground-based 
Midcourse Defense (GMD) past failures. I specifically commend 
you for standing up a missions readiness task force, and I am 
looking forward to hearing your assessment on how the MDA test 
program is proceeding.
    General Dodgen, I am specifically interested in hearing 
about the following: your crucial role as joint functional 
component commander for Strategic Command (STRATCOM), including 
progress in developing contingency operations for GMD, and your 
assessment of the operational readiness.
    Mr. Duma, I know that your organization has been working 
very closely with MDA in developing criteria for operational 
realistic testing. I look forward to hearing more about your 
assessment of MDA's test program.
    Mr. Flory, I look forward to hearing about your perspective 
on the ballistic missile threat to our country. I am interested 
in your views on how we are doing and engaging our 
international partners in cooperative missile defense.
    Now, let me recognize my good friend and colleague Mr. 
Reyes, the ranking member of the subcommittee.
    And a while ago when I mentioned that both of us were on 
the House Armed Services and the Intel Committees--comments 
following that--I do not speak for Mr. Reyes. He speaks for 
himself on those kind of things. But he has always been a 
strong advocate for the defense of this country.

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Reyes. Thank you, Mr. Chairman.
    I also want to thank Lieutenant General Obering and 
Lieutenant General Dodgen, Mr. Duma and Assistant Secretary 
Flory for joining us here today.
    Welcome, gentlemen.
    Mr. Chairman, although we have several contentious issues 
in our subcommittee's jurisdiction, our Members who follow your 
example are able to express differences of opinion without 
letting the debate turn ugly.
    We may need to call upon your leadership again this 
afternoon, Mr. Chairman, as we will be discussing some 
contentious issues related to the development, the testing and 
the deployment of ballistic missile defense.
    Before we get into that discussion, however, I want to 
explain, Mr. Chairman, how I frame this particular issue. This 
context is not for the sake of the Members of this 
subcommittee, because even when we may disagree about a defense 
issue, we never question each other's commitment to defending 
our nation.
    Rather, I do this for the sake of the general public, 
because too often we Democrats are painted as reflexively and 
unalterably opposed to missile defense.
    As you know, Mr. Chairman, after these many years that we 
have known each other, I am a strong supporter of missile 
defense, including the GMD system that already is being 
deployed in Alaska and California. And I think we will 
eventually prove that this system is an effective insurance 
policy against a limited ICBM threat.
    Moreover, ballistic missile defense systems that protect or 
will protect our troops on the front lines such as Patriot 
Advanced Capability-3 (PAC-3), Terminal High Altitude Area 
Defense (THADD) and Aegis ballistic missile defense (BMD) enjoy 
broad and strong bipartisan support.
    In 1999 H.R. 4, a bill co-authored by two of our committee 
colleagues, Congressman Curt Weldon and Congressman John 
Spratt, came to the House floor for a vote. H.R. 4 simply 
stated that, ``It is the policy of the United States to deploy 
a national missile defense system.''
    This was the simple language of H.R. 4, period, end of 
story, no caveat. And I am proud to tell you that a majority of 
House Democrats--again, a majority of House Democrats--voted 
for that measure, supporting that policy.
    I also know that on my side of the aisle we do not have as 
much consensus on national missile defense and deployment of 
that system as our colleagues on the other side. But somehow, 
in spite of all the evidence to the contrary, there is 
widespread perception that all Democrats oppose missile 
defense, especially a national missile defense system. That is 
flat wrong.
    I provide this context because today many Members will ask 
tough questions. And even though I strongly support missile 
defense, and even though I believe it is important and 
imperative for our nation to have a ballistic missile defense 
system in place, I too want to ask some tough questions because 
even though I support missile defense, I do not think we should 
give it a blank check or allow it to avoid a thorough testing 
process. I think that is part of our obligation as Members of 
Congress.
    On the contrary, the very fact that someday a missile 
defense system might be the last line of defense to protect our 
citizens against nuclear-tipped missiles, this is exactly why 
it should undergo some strenuous testing before deployment.
    Last year, when we held our subcommittee oversight hearing 
after three missile defense test failures, I stated that we 
should not be discouraged by those tests, and I compared our 
task to that of a baseball player who, after striking out, 
needs to go back to the dugout, regroup before his next turn at 
bat.
    Well, General Obering, MDA has regrouped. Your decisions to 
charter an independent review team and then implement its 
recommendations have helped to set the program back on the path 
to success. Since resuming testing last summer, MDA has 
achieved test objectives in all aspects of the program, 
including interceptors, radar, battle management, and 
targeting.
    Just yesterday, MDA successfully completed a joint test 
with the Japanese demonstrating the performance of SM-3 Aegis 
missile that had been modified with a Japanese-designed 
advanced nose cone, all very welcome news to all of us on the 
committee.
    Yet the most challenging tests, I think, are still to come. 
This spring and summer MDA will attempt to verify the entire 
field chain of the GMD system, including an actual intercept 
using deployed hardware under what I think are going to be more 
realistic conditions with our nation's warfighters at the 
controls.
    Today we will have an opportunity to ask both the developer 
and the operational tester about the value of these upcoming 
tests. Specifically, if these tests are successful, will we 
have achieved Block 04 operational capability?
    In the broader context, I also have questions about the 
pace and the scope of the missile defense program. As an 
example, the fiscal year 2007 budget includes long-lead funding 
for GMD boosters numbers 41 through 50. This buy would complete 
procurement of all GMD boosters prior to the conclusion of 
operational testing.
    In addition, funding for the two boost phase missile 
defense options, Airborne Laser (ABL) and Kinetic Energy 
Interceptor (KEI), is collectively slated to grow by over 50 
percent between fiscal year 2006 and 2007. This growth is 
proposed even after Congress requested a report comparing the 
capabilities and the cost of these two systems.
    My question is do we really need to accelerate the 
development of both boost phase systems. As I see it, we are 
not debating the question of are you for missile defense or 
not. Instead, today we are discussing the relative value and 
the priority of different missile defense systems given the 
threats that we are facing worldwide.
    We are also seeking assurance that deployed systems undergo 
the rigorous testing required to assure warfighters of their 
operational capability.
    So, Mr. Chairman, I thank you for the opportunity to state 
the context as I personally see it and for calling this very 
important hearing. I value your leadership, and I value your 
friendship, and I know that you always have given us an 
opportunity to fully look at all these different issues.
    So today I look forward to the testimony of our 
distinguished witnesses, and with that, I yield back.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 41.]
    Mr. Everett. I thank my colleague. And as my colleague 
knows, I have no objection to anything that he says. I am in 
full agreement.
    I am supposed to have a--General Obering, I will tell you 
what. We will just start with you while I find out where I am 
at here.

 STATEMENT OF LT. GEN. HENRY A. OBERING III, DIRECTOR, MISSILE 
                 DEFENSE AGENCY, U.S. AIR FORCE

    General Obering. Yes, sir. Good afternoon, Mr. Chairman, 
Congressman Reyes and distinguished Members of the committee. 
It is an honor to be here today. I ask that my prepared 
statement be entered for the record.
    Mr. Everett. Without objection. And by the way, we can make 
that 10 minutes if you guys need it. I will take 5, but we can 
make it 10 minutes each, and the rest of your statements will 
be made a part of the record.
    General Obering. Thank you. Since I last addressed this 
committee, we have made good progress developing and fielding 
an integrated layered system to defend the United States, our 
deployed forces, allies and friends against ballistic missiles 
of all ranges in all phases of flight.
    We have implemented improved mission assurance processes, 
established an increasingly robust and operationally focused 
test program, and continued the fielding of system components 
and integrated capabilities.
    For the 2007 budget request, we plan to expand the 
development, fielding and verification of this critically 
needed defense. Proliferating and evolving ballistic missile 
systems increasingly pose a danger to our national security.
    There are hundreds of these missiles in more than 20 
countries around the world, including those hostile to the 
United States. Last year, there were nearly 80 foreign 
ballistic missile launches.
    Our program is structured to meet this evolving threat. We 
balance the early fielding of system elements with steady 
improvements for a spiral development and test approach. 2007 
will be a very intense and demanding period for our development 
and fielding efforts. As such, we are requesting $9.3 billion 
to support our program of work.
    About $2.4 billion covers the continued fielding and 
sustainment of system components, including the long-range 
ground-based midcourse defenses, short to intermediate range 
defenses involving our sea-based interceptors, and all 
supporting radars, command, control, battle management, and 
communications (C2BMC) capabilities. About $6.9 billion will be 
invested in development for evolution and testing of the 
system.
    As I detail our request for 2007, I think that it is 
appropriate for me to review where we are with the budget that 
you previously approved.
    In our long-range midcourse defense element, I delayed the 
interceptor deployment in 2005 to make the program changes 
recommended by an independent team that reviewed our two flight 
test reports last year.
    I also established a mission readiness task force to follow 
through on the corrections to ensure our return to a successful 
program.
    We are now undertaking the additional recommended 
qualification tests and have implemented much stronger systems 
engineering and quality control processes. These comprehensive 
reviews and our recent successes indicate that we should 
continue interceptor deployment. But I will pause again if 
necessary.
    We recently emplaced 3 more ground-based interceptors in 
Alaska and plan to have a total of 16 deployed by December of 
this year. This progress is critical, since we expect the 
ground-based midcourse defense element to be the backbone of 
our long-range defense capabilities for years to come.
    Missile defense testing, based on event-driven results, 
continues to evolve to where we test as we fight and we fight 
as we test. We cooperate fully with the operational test 
community and the combatant commanders and their efforts to 
characterize system effectiveness and readiness.
    Last year, I told you that we planned to conduct two long-
range interceptor tests in 2005. That did not happen, because 
we wanted to ensure that we fully implemented the 
recommendations of the mission readiness task force.
    With the successful December flight of our operationally 
configured long-range interceptor, we have resumed an 
aggressive test program that includes three more flight tests 
this year. These will include realistic targets, operational 
sensors, operational crews and operational interceptors from 
operational silos, with two of them as planned intercepts 
beginning this summer.
    Last year the committee voiced concern about the ability of 
the Cobra Dane radar to support the fire control mission. This 
past September, we flew a threat representative air launch 
target, generating tracks that the operational fire control 
system then used to produce an intercept solution. We are 
confident in the capability of this radar.
    We also reached another major milestone last month when we 
successfully tested the upgraded Beale early warning radar in 
California against a realistic ICBS target launched from 
Alaska. Again, the operation configured fire control system 
generated an intercept solution from the track data provided by 
the Beale radar.
    Later this year, we will deploy the first transportable 
forward-based X-band radar to our very important ally, Japan, 
where it will provide both support for regional and homeland 
defense.
    And in the United Kingdom, we expect the upgraded 
Fylingdales radar to achieve initial capability later this 
year.
    In our sea-based sensor program, we added six more Aegis 
long-range surveillance and track destroyers for a total of 11. 
We successfully tested this capability against targets launched 
from Hawaii and California.
    Last year this committee expressed interest in our long-
range and our large sea-based X-band radar. I am pleased to 
report that we completed its instruction and made good progress 
in integrating that radar into the system.
    This winter, after extensive sea trials and high-power 
radiation testing, the radar completed its long journey from 
Texas to Hawaii. Later this year, it will be placed on station 
in Alaska where it will complete its integration and checkout.
    Of our total 2007 budget request, $2.7 billion would go 
toward the long-range midcourse defense. These funds would 
allow us to continue to improve and build additional 
interceptors, their silos, support equipment and facilities, as 
well as order long-lead items for the next fielding increment.
    We plan to field and support up to a total of 22 
interceptors and conduct two more flight tests by the end of 
2007. To continue to expand our sensor coverage in 2007, we 
would deliver the second forward-based X-band radar and begin a 
major portion of the upgrade to the Thule radar in Greenland. 
We are requesting $475 million between these efforts.
    As we prepare for an uncertain future, being able to meet 
emerging threats worldwide becomes important. This means moving 
to space with precision tracking sensors. Therefore, we have 
budgeted $380 million to continue the development of our space 
tracking and surveillance system. This includes the launch of 
two demonstration satellites in 2007 to begin experimentation.
    I would now like to turn to our most important area, 
command, control, battle management and communications. This 
infrastructure is the heart, soul and brain of our defensive 
capabilities. Without it, we simply cannot execute the mission.
    The global foundation that we have established for our 
nation's leadership, Strategic Command, Northern Command and 
Pacific Command, is unmatched in the world, but we have only 
just begun. We need to expand this network to other combatant 
commands and to develop the integrated fire control that will 
allow us to mix and match sensors and weapons to expand our 
detection and engagement capabilities.
    We also continue to work closely with strategic command and 
the combatant commanders to train and certify missile defense 
crews by exercising the system with launch-ready 
demonstrations. The $264 million we are requesting for these 
efforts is essential to ensuring an effective missile defense 
system.
    Committee Members raised a concern last year that with our 
focus on long-range defenses, we might not be adequately 
funding defenses against the short to intermediate range 
ballistic missiles. I can assure you that we are aggressively 
addressing these threats from several angles. Nearly $2 billion 
of our 2007 budget request is allocated evenly between our 
Aegis ballistic missile defense and terminal high altitude area 
defense, or THAAD, program to enable us to field capabilities 
to counter these threats.
    In addition to providing long-range surveillance and 
tracking support, Aegis is providing a flexible sea-mobile 
intercept capability against the shorter range ballistic 
missile. This past year, we added a second Aegis engagement 
cruiser trial involving architecture. In November, we 
successfully used an Aegis cruiser to engage a separating 
target carried on a medium-range ballistic missile. We plan to 
conduct two more intercept tests this year and two more in 2007 
using upgraded versions of this interceptor.
    By the end of 2007, we expect to have three engagement 
cruisers and seven engagement destroyers available with up to 
33 Standard Missile-3 (SM-3) interceptors delivered.
    In our THAAD program, we are coming off a very encouraging 
flight test last November when we put the redesigned 
interceptor through its paces. We will continue to characterize 
this performance and integrate this element into the overall 
system.
    We plan to conduct four more flight tests in 2006, 
including the first high endo-atmospheric intercept. And in 
2007, we plan to conduct four intercept tests in both the exo- 
and endo-atmospheric regions. We will continue our development 
efforts and plan to field a first unit in Block 2008 with a 
second unit available in Block 2010.
    To keep ahead of future threats, there are several other 
important development efforts funded in this budget. We 
continue to follow a strategy of retaining alternative paths 
until the capability is proven, what we call a knowledge-based 
approach.
    The airborne laser reached all of its knowledge points for 
last year when it reached and achieved a full duration lase at 
operational power and completed initial beam control and fire 
control flight tests.
    Currently, we are installing the tracking and atmospheric 
compensation lasers and preparing the aircraft to accept the 
high-power laser modules in 2007. We have planned a campaign of 
flight tests leading to a lethal shootdown of a ballistic 
missile in 2008. Nearly $600 million of our budget request is 
for this revolutionary work.
    In our other boost phase development activity, the kinetic 
energy interceptor (KEI), we focused our efforts on 
demonstrating a mobile land-based very high acceleration 
booster. Last year, we demonstrated the command, control, 
battle management and communications functions required for the 
boost intercept mission.
    This past January, we completed the successful static 
firing of a second-stage prototype and will continue static 
firing tests of the booster's first and second stages in 2007 
leading to the first flight in 2008. We have requested nearly 
$400 million in our budget for this moderate-risk effort.
    As threats grow in complexity, we will need a volume kill 
capability. The multiple kill vehicle (MKV) program is a 
generational upgrade to our long-range midcourse interceptor.
    In 2005, we made progress in the development of the seeker 
and made the decision to move to a lower-risk propulsion system 
which we plan to hover test in 2009. We have allocated $162 
million to continue this very important development effort.
    Committee Members expressed strong interest last year in 
our international efforts. We have been working closely with a 
number of allies and friends and have concluded formal 
agreements with four countries, with several more pending.
    Japan continues to make significant investments in 
multilayered missile defenses. We have worked closely with 
Japan since 1999 to develop advanced Standard Missile-3 
components, and I am proud to say that yesterday we 
successfully flight tested a product of this cooperation, an 
advanced nose-cone, off the coast of Hawaii.
    This success is a good start for our most ambitious 
international effort with our partner, Japan, the co-
development of a 21-inch Standard Missile-3 which will have 
greatly expanded performance and dependent area capability.
    In April we concluded an agreement with Australia to expand 
our cooperative work on sensors. An agreement with Denmark 
allows us to upgrade the Thule radar and integrate it into the 
system by 2009.
    In addition to the Fylingdales radar integration 
activities, we are undertaking a series of technical 
development efforts with the United Kingdom. In our ongoing 
work with Israel on the Arrow Interceptor will continue to 
enhance its missile defenses against emerging threats.
    Mr. Chairman, last year I asked this committee to have 
tactical patience as we worked through our quality control 
issues. I explained that we certainly have our challenges, but 
for the most part the program is on track.
    The successes that we have had over the past year bear this 
out. I greatly appreciate this committee's continued support 
and patience, and I want to thank the thousands of Americans 
and allies, both in government and industry, working hard to 
make missile defense a success.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Obering can be found in 
the Appendix on page 46.]
    Mr. Everett. Thank you, General Obering.
    General Dodgen.

STATEMENT OF LT. GEN. LARRY J. DODGEN, COMMANDING GENERAL, U.S. 
 ARMY SPACE AND MISSILE DEFENSE COMMAND, AND U.S. ARMY FORCES 
                  STRATEGIC COMMAND, U.S. ARMY

    General Dodgen. Thank you, Mr. Chairman.
    Mr. Chairman, Congressman Reyes and Members of the 
Strategic Forces Subcommittee, thank you for the opportunity to 
appear before this distinguished panel and for your ongoing 
support to our military.
    This committee's support of the Army and the missile 
defense community has been instrumental to our efforts in 
fielding missile forces for our nation and our allies.
    I appear before this panel in two roles. The first role is 
as an Army commander for missile defense and proponent for the 
ground-based midcourse defense, or GMD, system. My second 
role----
    Mr. Everett. General Dodgen, do you mind pulling that mike 
a little bit closer?
    General Dodgen. Not at all.
    Mr. Everett. I am getting old and it is hard to hear. Let 
me say older, not old.
    General Dodgen. In my second role, I am a member of the 
joint missile defense team as commander of the joint functional 
component command for integrated missile defense, or JFCC-IMD, 
as part of the United States Strategic Command (STRATCOM), and 
the joint user representative working closely with MDA, other 
services, combatant commanders to ensure that our national goal 
of developing, testing and deploying an integrated missile 
defense (IMD) system is met.
    Before addressing the fiscal year 2007 President's budget 
submission for the Army's missile defense systems, I would like 
to provide a very brief update on the JFCC-IMD. The JFCC-IMD 
was established in January 2005 as one of the JFCC supporting 
U.S. STRATCOM's new triad concept. We reached full operational 
capability on 28 February of this year.
    The JFCC is truly joint, manned by Army, Navy, Air Force 
and Marine Corps personnel. It is headquarters at the Joint 
National Integration Center at Schriever Air Force Base in 
Colorado. This arrangement allows us to leverage the existing 
robust infrastructure and our strong partnership with our co-
located MDA team to execute the IMD mission.
    In the past year, the JFCC-IMD has aggressively executed 
STRATCOM's global mission to plan, coordinate and integrate 
missile defense--in short, to operationalize capabilities. In 
collaboration with geographical combatant commanders, we are 
developing IMD plans that integrate theater and national assets 
to provide the best protection.
    Through our partnership with MDA, our sister services and 
warfighters at the GCCs, U.S. STRATCOM is setting the stage to 
evolve the BMDS beyond its current capability to a global 
capability to provide more robust missile defense for the 
homeland, deployed forces, friend and allies.
    I would now like to highlight the Army's fiscal year 2007 
budget submission for air and missile defense (AMD) systems. 
The President's budget presented to Congress on February 6 
includes approximately $1.57 billion with which the Army 
proposes to perform current Army AMD responsibilities and focus 
on future development and enhancement of both terminal phase 
and short-range AMD systems.
    Mr. Chairman, with the past support of this committee, the 
Army continues to improve its ability to acquire, track, 
intercept and destroy theater air and missile threats. The 
Patriot system remains the Army's mainstay theater air and 
missile defense system, and our nation's only deployed land-
based short to medium-range ballistic missile defense 
capability.
    Today's Patriot force is a mixture of configured units. To 
maximize our capabilities and better support the force, the 
Army is moving toward updating the entire Patriot force to PAC-
3 configuration. The current and updated Patriot force should 
be maintained through sustainment and recapitalization efforts 
until the medium extended air defense system, or MEADS, is 
fielded, which is projected to begin in 2015.
    As many of you are aware, the MEADS is a cooperative 
development program with Germany and Italy to collectively 
field an enhanced ground-based air and missile defense 
capability. The MEADS program will enable the joint integrated 
air and missile defense community to move beyond the critical 
asset defense designs we see today.
    MEADS will provide theater-level defense of critical assets 
and continuous protection of a rapidly advancing maneuver force 
as part of a joint integrated AMD architecture.
    As I reported last year, the Patriot MEADS combined 
aggregate program, or CAP, has been established. The objective 
of CAP is to achieve the objective MEADS capability through 
incremental fielding of MEADS' major in-items into Patriot.
    Patriot MEADS CAP is an important capability that will 
operate within MDA's BMDS. The Patriot and PAC-3 MEADS CAP 
research, development and acquisition budget request for fiscal 
year 2007 is approximately $916 million. This request procures 
108 PAC-3 missiles and reflects the necessary Patriot 
development to keep the system viable as we pursue development 
of PAC-3 MEADS CAP capabilities.
    The threat from land attack cruise missiles exists today 
and will grow in the future. As you know, cruise missiles are 
inherently very difficult targets to detect, engage and destroy 
because of their small, low-detection signature and low-
altitude flight characteristics.
    It is clear that the required systems and capabilities 
necessary to counter this emerging threat need to be 
accelerated to the field, to field a cruise missile defense 
(CMD) capability as soon as possible.
    Critical Army components of the joint CMD architecture are 
provided by the joint land attack cruise missile defense 
elevated netted sensor, or JLENS; the surface launched advance 
medium-range air-to-air missile, or SLAMRAAM; and an integrated 
fire control capability.
    We are also working closely with the joint community to 
assure development of doctrine that synchronizes our military's 
full capabilities against the cruise missile threat.
    The JLENS program is developing unique lightweight fire 
control and surveillance radars to detect, track and identify 
cruise missile threats. JLENS uses advanced sensors and 
networking technologies to provide precision tracking and 360-
degree wide-area, over-the-horizon surveillance of land attack 
cruise missiles.
    The fiscal year 2007 JLENS funding request is $264 million, 
supports development of full JLENS capability with first unit 
equipped occurring by 2011.
    SLAMRAAM will provide a CMD system to maneuver forces with 
an extended battle space and a beyond line-of-sight engagement 
capability critical to countering the cruise missile and 
unmanned area vehicle threats. The fiscal year 2007 funding 
request of $49 million supports the scheduled initial 
operational capability target of 2011.
    Sentinel radar is a critical component in the Army's 
ability to conduct air surveillance for the maneuver force. 
Sentinel is a small, mobile battlefield radar that supports the 
joint air defense sensor network in detecting cruise missiles, 
UAVs and helicopter threats.
    The fiscal year 2007 request of $17.6 million provides for 
continued development and integration of improvements to 
support joint interoperability.
    The forward deployment today of joint tactical ground 
stations, or JTAGS, in EUCOM, CENTCOM and PACOM, provides 
assured missile warning to combatant commanders and assigned 
forces through a direct downlink to space-based infrared assets 
into the joint theater communications architecture.
    Fiscal year 2007 funding request of $24.9 million sustains 
the forward deployed JTAGS units supporting joint warfighters 
and postures the Army to participate with the Air Force in 
future ground mobile system compatible with the space-based 
infrared system and follow-on sensors.
    Mr. Chairman, the Army is a full contributing member of the 
joint team to develop and field ballistic missile defense for 
our nation, deployed forces, friends and allies. With the 
continued support of this committee, the Army will continue the 
transformation to support the Army's future force, the joint 
integrated air and missile defense system and our global BMDS, 
building on the ongoing success of our theater air and missile 
defense forces.
    I appreciate having the opportunity to speak on these 
important matters and look forward to addressing your questions 
to you and other Members of this committee. Thank you very 
much.
    [The prepared statement of General Dodgen can be found in 
the Appendix on page 71.]
    Mr. Everett. Thank you, General Dodgen.
    Mr. Duma.

  STATEMENT OF DAVID W. DUMA, DIRECTOR, OPERATIONAL TEST AND 
             EVALUATION, U.S. DEPARTMENT OF DEFENSE

    Mr. Duma. Chairman Everett, Ranking Member Reyes, 
distinguished Members of the committee, I am pleased to have 
this opportunity to speak to you about the ballistic missile 
defense system test program. I will cover four areas.
    First, I will recap the Missile Defense Agency, or MDA, 
test accomplishments during the past year. Second, I will 
discuss organization and philosophy changes within MDA. Third, 
I will give you a status of compliance with the test 
requirements prescribed in recent national defense 
authorization acts. Fourth, I will highlight future challenges 
facing the test program of the ballistic missile defense 
system, or BMDS.
    First, the results. The MDA testing program during 2005 was 
adequate and appropriate to the developmental maturity of the 
BMDS. The results of ground tests demonstrated that 
integration, interoperability, tactics, doctrine and procedures 
were adequate to increase confidence in these aspects of the 
system.
    For the first time, MDA flew a Raytheon exo-atmospheric 
kill vehicle integrated onto an orbital sciences booster. While 
the flight was successful, it did not evaluate the fixes to the 
ground support system that caused the previous flight test 
launch failures. Plans are to demonstrate the ground system 
fixes in subsequent flight-testing.
    The flight of threat representative targets across the 
search and track volumes of the Cobra Dane and Beale early 
warning radars demonstrated their capability to provide target 
acquisition, tracking and queuing data.
    MDA executed an operationally realistic test scenario that 
provided significant information regarding the Cobra Dane 
capabilities and limitations. MDA also demonstrated they could 
successfully launch a long-range threat representative target 
from an air platform.
    The Aegis ballistic missile defense system completed two 
intercept missions with the new SM-3 missile. One of these 
flights included an intercept of a separating target. This was 
a first for that missile.
    The airborne laser completed the passive phase of flight 
test of the beam control/fire control system, and completed the 
integration and operational demonstration of six integrated 
chemical oxygen iodine laser modules.
    The terminal high-altitude area defense system, or THAAD, 
executed its first flight test in five years. It flew its 
redesigned missile on a non-intercept test to demonstrate 
performance and measure interceptor kinematics.
    Last year, two new sensors completed integration and some 
combined developmental and operational testing. The forward-
based X-band radar-transportable, or FBX-T, demonstrated its 
ability to track long-range ballistic missile launches.
    The sea-based X-band radar completed integration testing in 
the Gulf of Mexico and has arrived in Hawaii to begin its 
checkout and integration into the BMDS test bed. The results of 
the integrated ground tests, coupled with the success of other 
element-level ground and flight test events, indicate the BMDS 
is maturing.
    Second, the approach. General Obering implemented several 
changes in organization and test philosophy during the past 
year. These changes more tightly integrate the developers, 
warfighters and operational testers. They should also better 
integrate the system engineering functions and the test and 
evaluation functions within MDA.
    These changes, coupled with improvements in test planning, 
execution and analyses should result in better definition of 
data requirements and better, more efficient test execution.
    As part of his re-engineering his agency, General Obering 
established the responsible test organization and combined test 
force under the leadership and direction of his deputy for test 
and assessment.
    The combined test force will plan and execute tests and 
collect and analyze data that will populate a database to 
support the technical and operational evaluations of BMDS 
performance. The combined test force will include test 
personnel from each of the BMDS elements and the operational 
test agencies.
    With the support of General Obering, I have commissioned 
the Institute of Defense Analyses to examine and recommend a 
construct that integrates the operational testers into the 
combined test force. The goal is to maintain the operational 
testers' independence and credibility while economizing 
resources, eliminating duplication of effort and supporting the 
combined test force mission and objectives.
    General Obering and I have also asked the institute to 
investigate and recommend how to best integrate each 
stakeholder's assessment needs into the test planning, 
execution, data collection, analysis and evaluation processes. 
This should further streamline the test and evaluation planning 
and execution process, while ensuring all stakeholders 
efficiently and effectively meet their objectives.
    Along with these organizational changes, MDA and the 
operational test community have agreed on an integrated test 
planning approach for future BMDS blocks. Beginning with Block 
2006, MDA, the joint operational test agency and my office will 
develop an integrated, evaluation-driven test plan.
    This test planning philosophy brings discipline and 
structure to planning block testing based upon overall system 
evaluation needs. It does this while concurrently addressing 
individual element test requirements.
    This approach should increase the quantity and the quality 
of data while fostering the efficient use of test resources. It 
will also enhance efforts to address priority issues, such as 
verification, validation, and accreditation of models and 
simulations.
    Third, congressional interest. Over the last few years, 
Congress has asked MDA and my office to accomplish several 
specific initiatives with regard to operational testing of the 
BMDS. Fiscal year 2004 National Defense Authorization Act 
required operationally realistic testing of the BMDS.
    This past year, MDA conducted numerous ground tests, war 
games and capability demonstrations using trained warfighters 
to operate the systems. These exercises included fully 
integrated ground and simulated missions designed by the 
operational testers and the warfighters.
    This year's update to the integrated master test plan 
incorporates greater operational realism in the areas of 
increased warfighter involvement in flight tests; more end-to-
end system testing; use of operationally representative 
missiles; employment of operational tactics, techniques and 
procedures; and inclusion of more complex countermeasures.
    Incorporating trained warfighters into the testing program 
has added to the operational understanding of the capabilities, 
limitations and maturity of the BMDS.
    In fiscal year 2005, Congress required the MDA to conduct a 
realistic operational test of the BMDS. Following two launch 
failures in the ground-based midcourse defense system and 
recommendations from two independent review teams, General 
Obering restructured the flight test program.
    Flight testing to date has not yet reduced the risk to the 
point where General Obering is ready to execute an 
operationally realistic flight test. Under the restructured 
program, MDA plans three operationally realistic flight tests 
later this year.
    In fiscal year 2006, Congress required the operational test 
community to plan and conduct an operational test of the 
capability provided by each block of the BMDS beginning with 
Block 2006. I have taken action to begin this effort involving 
not only the operational test community but also the 
warfighters and MDA.
    When the evaluation plan is finished, MDA will include 
these tests in the next revision to the integrated master test 
plan.
    Fourth, the challenges. The complexity of the BMDS is 
increasing. Elements are maturing and being integrated into the 
system. Consequently, testing of the BMDS is becoming more 
challenging as the agency adds elements and capability.
    Testers must assess performance and reliability during 
concurrent test and operations of a layered BMDS system. 
Integration of the BMDS elements and sensors that are still 
maturing with operational legacy systems is a difficult task.
    Fusing the data that each element provides into a single, 
unambiguous operational picture is a significant software 
development, integration, and testing challenge. Range safety 
and environmental restrictions limit intercept geometries to 
only a few scenarios.
    Meeting each of these challenges is a big task, one that 
requires a series of well-planned ground and flight tests.
    Over the long term, MDA should incrementally develop a 
capability to support concurrent testing and operations, 
including simulation over live testing, to speed up the 
process. This is similar to how DOD upgraded and tested 
Cheyenne Mountain without interfering with operations.
    When developed, this capability will provide an alternative 
means for system test and evaluation to characterize 
operational effectiveness and suitability using actual hardware 
and warfighters in the loop.
    Mr. Chairman, in conclusion, the MDA experienced a 
difficult year with its ground-based midcourse defense system 
but ended the year on several high notes. Element successes 
indicate they are progressing toward maturity.
    Last year, warfighters demonstrated they could operate the 
integrated ground system. The fact remains, however, that we 
ground test for discovery, and we must flight test to verify 
operational performance and validate the simulations.
    Successful flight tests are the cornerstone for building 
confidence in the BMDS. War fighters must have confidence that 
the system will defend on demand.
    This concludes my opening remarks. I ask that my statement 
be entered into the record. And I welcome your questions.
    [The prepared statement of Mr. Duma can be found in the 
Appendix on page 90.]
    Mr. Everett. Without objection, and thank you, Mr. Duma.
    Mr. Flory.

  STATEMENT OF HON. PETER C.W. FLORY, ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY POLICY

    Secretary Flory. Chairman Everett, Ranking Member Reyes and 
Members of the subcommittee, thank you. It is a pleasure to be 
here with you today to provide the subcommittee with a policy 
perspective on our ballistic missile program. You just heard 
laid out for you very capably and exhaustively the details of 
that program and where we are going with it.
    I would like to express our support for the subcommittee's 
support and assistance over the years for our strategic 
programs and for the Department of Defense.
    Ballistic missile defense has been a top defense priority 
of this Administration from day one, and it remains a priority 
today. I take you back briefly to the beginning of the 
Administration and look at the threat in the world we faced at 
that point.
    As members are aware, the security environment at 2001, at 
the beginning of 2001, was very different from the one we faced 
in the Cold War and it is about to change again significantly.
    Former Director of Central Intelligence Jim Woolsey has 
pointed out that with the demise of the Soviet Union, we found 
that while we had slain a great dragon, the dragon had been 
replaced by many dangerous snakes. So the end of the Cold War 
did not mean that the we no longer faced a threat, but it meant 
that the United States would faced a different kind of threat 
and a greater number of threats.
    One such threat was the spread of weapons of mass 
destruction and the means of delivering them, particularly 
ballistic missiles. Regimes in countries such as North Korea 
and Iran and, at the time, Iraq understood that while they 
could not hope to match the United States in conventional 
forces, they could gain strategic leverage by investing in 
ballistic missiles.
    Without a defense against ballistic missiles, the American 
people are vulnerable to the threat of missile attack. And 
without defenses, an American President, faced with a threat to 
vital U.S. interests from a rogue state armed with long-range 
missiles, could find that our options are constrained by the 
fact that these countries can now, for the first time, hold at 
risk the U.S. population and the American homeland.
    To deal with this threat, President Bush in 2001 and 2002, 
took several bold steps. First, he announced that the United 
States would exercise its right to withdraw from the 
Antiballistic Missile, or ABM, Treaty.
    Second, in 2002 he directed the Department of Defense to 
end what had been for decades a research-and-development-only 
approach to ballistic missile defense and to begin actually 
fielding an initial set of capabilities for the United States 
by the end of 2004.
    I am pleased to say that today the United States has all of 
the pieces in place that it needed to intercept an incoming 
long-range ballistic missile. As you have heard described, we 
have ground-based interceptors in Alaska and California; a 
network of ground, sea and space-based sensors; a command and 
control network; and, most importantly, trained servicemen and 
women ready to operate the system.
    Our system today is primarily oriented toward continued 
development and testing, but we are confident that it could 
intercept a long-range ballistic missile if called upon to do 
so.
    Because of the importance of this mission, one of the first 
things I did on assuming my current position in the Department 
of Defense was to take a trip up to Fort Greely. I want to tell 
you how impressed I was, not just by the equipment and the 
hardware and the facilities there, but the dedication and the 
professionalism and the sense of mission of the men and women 
who are there guarding our country day and night.
    And I would encourage you all to visit Fort Greely. I know 
it is a long way away. But I know the men and women who are 
stationed there would appreciate the visit, and I am confident 
you will be as impressed as I was by both the facilities and 
the quality of the people we have there.
    I would like to take a few minutes to put this program in 
its strategic context, in terms of the evolving threat, and in 
terms of our overall defense strategy. First and foremost, as I 
mentioned briefly earlier, the threat posed by ballistic 
missiles is growing. And the missiles we are talking about are 
growing in range, complexity and in the threat they pose.
    In 1990, around the end of the Cold War, there were 16 
countries that possessed ballistic missiles of varying ranges. 
Today, about 25 countries have them.
    The number of countries that possess medium, intermediate, 
or intercontinental ballistic missiles--in other words, 
missiles with ranges over 600 kilometers that may reach our 
friends and allies and, in some cases, the U.S. homeland 
itself--has increased from five to nine, so it has almost 
doubled.
    Not only is the number of nations possessing ballistic 
missiles increasing, but the group includes some of the world's 
most threatening and least responsible regimes, such as North 
Korea and Iran.
    General Maples, the director of the Defense Intelligence 
Agency, testified recently in an unclassified session that 
North Korea continues to invest in ballistic missiles, not only 
for its own use but for foreign sales as well.
    As General Maples--I should be clear, Lieutenant General 
Maples, pointed out, Pyongyang is likely developing 
intermediate and intercontinental ballistic missile 
capabilities.
    As then--Deputy Secretary of Defense Wolfowitz testified 
before the Senate Armed Services Committee in 2001, North Korea 
launched a multi-stage Taepo-Dong-1 missile in 1998, which the 
intelligence community tells us demonstrated a North Korean 
capability to deliver a small payload to the United States.
    Now today, North Korea continues to work on the Taepo-Dong 
II. In fact, it may be preparing to test the Taepo-Dong II, 
which is a longer range missile capable of reaching more of the 
United States with a nuclear weapon-size payload.
    Mr. Chairman, for over 50 years, U.S. service members have 
stood on the border of North and South Korea. And we have 
always known that these men and women were in harm's way. The 
prospect of long-range ballistic missiles in the hands of the 
North means that, for the first time, the American people, too, 
are in harm's way.
    Turning to Iran, Iran represents a dangerous nexus, 
combining a vigorous ballistic missile program, a desire and a 
program to develop nuclear weapons, and a history of support 
for international terrorism.
    Terrorism has been part of Tehran's strategy for decades. 
And in fact, before the 9/11 attacks, more Americans had been 
killed by Iranian-backed terrorists like Hezbollah and others 
than by any other terrorist group.
    Iran has now made ballistic missiles an important part of 
its defense strategy. The intelligence community judges that 
Iran now has the Shahab-3 missile operationally deployed and 
could flight-test an IBM by the year 2015, so that is 9 years 
away.
    Now, the Director of National Intelligence, John 
Negroponte, recently testified before Congress that Iran has 
engaged in a clandestine uranium enrichment program for nearly 
two decades and that, although it is the judgment of the 
intelligence community that Iran does not yet possess a nuclear 
weapon or have the necessary fissile material to do so, the 
danger that it will acquire a nuclear weapon and the ability to 
integrate such a weapon with ballistic missiles that Iran 
already possesses is a reason for immediate concern.
    In this environment, the recent statements by Iranian 
president Ahmadinejad threatening the United States and its 
friends are of even greater concern. In an October 2005 speech, 
president Ahmadinejad declared that ``Israel must be wiped off 
the map and, God willing, with the force of God behind it, we 
shall soon experience a world without the United States and 
Zionism.''
    I note that in the papers today we see an Iranian spokesman 
promising that harm and pain will come to the United States if 
the U.N. sanctions Iran over its nuclear weapons program.
    Iran's ballistic missiles already cast a shadow over U.S. 
friends and allies and over our deployed forces in the Middle 
East. And as DNI Negroponte testified recently, this is part of 
Iran's strategy to be able to threaten our allies, to be able 
to threaten our forces in the region.
    The addition of nuclear warheads and an ICBM that could 
reach the United States would further extend Iran's ability to 
coerce others and to threaten the United States.
    As we face these threats, ballistic missile defenses are an 
important part of our overall defense strategy. Last month, the 
department released the 2006 Quadrennial Defense Review, or 
QDR. The QDR identifies a number of priorities to guide the 
department as it makes choices about how to best defend the 
Nation and how best to win the long war against terrorism and 
extremism.
    These priorities include defending the homeland in depth, 
shaping the choices of countries at strategic crossroads, and 
preventing hostile states and non-state actors from acquiring 
or using weapons of mass destruction.
    Ballistic missile defenses make a contribution to each of 
these important priorities. They can be used to defend the 
homeland and to defeat the actual use of a ballistic missile 
against the population and territory of the United States, or 
its deployed forces or its friends and allies.
    And by making an adversary uncertain that a ballistic 
missile attack would succeed, missile defenses can dissuade 
countries from investing in missiles or deter their use by 
those who have already acquired them.
    Some have questioned the amount of attention and the amount 
of money that has been invested in ballistic missile defense in 
the years following the September 11th attacks, on the theory 
that the main threat to the United States is terrorism, and 
that a ballistic missile attack against the United States is 
unlikely.
    I would turn that argument around. One of the lessons of 
September 11th is that nothing is unthinkable, and that the 
United States must and can prepare to defend itself against the 
widest range of threats possible.
    The U.S. Government was criticized in the wake of 9/11 for 
not connecting the dots on the terrorist threat and for failing 
to act to prevent the attacks. With respect to the ballistic 
missile threat, the dots are out there for all to see.
    And I certainly would not care to have to come before this 
committee in the wake of a ballistic missile attack to explain 
why, given all that we know of ballistic missiles in the hands 
of dangerous regimes, we had not acted to defend the American 
people.
    A theme throughout the Quadrennial Defense Review is the 
presence of uncertainty and surprise. And I mention this 
because this has been particularly part of our history of 
dealing with the ballistic missile threat.
    Despite the best efforts of our intelligence community, the 
fact is that countries that develop ballistic missiles for the 
kind of purposes that they are developing them for, to threaten 
the United States, to intimidate us and our allies--first, they 
tend to do it in unorthodox ways that do not look like the way 
that we and the Soviets prepared them.
    They do not have long, extensive test programs. They are 
not seeking high degrees of reliability or safety. But as a 
result of that and the way that they proceed, they are able to 
achieve what for them is a useful capability with relatively 
little time and, because they are going to great lengths to 
hide these, often with very little or no warning for the United 
States.
    We have been surprised many more times than we would like 
to. One example is North Korea's deployment of the No Dong 
missile after only one test, something that we, based on our 
own practices, would have judged unlikely.
    Another example was when North Korea launched the Taepo-
Dong-I missile in 1998 and when, to our surprise, it turned out 
to have a third stage that we had had no idea that they were 
working on.
    I mention this to emphasize that the--while I have tried to 
give you an idea of the threats that we know about, we always 
need to be very modest and we need to be very cautious in our 
confidence in the information that we have and the assumptions 
that we are making based on that information, because as the 
Rumsfeld Commission on Ballistic Missile Defense pointed out in 
1998, we need to be very cautious, and we cannot be sure that 
we know all the things that we need to know to make these 
decisions, and that therefore decisions that require--that are 
premised on having a certain level of certainty can be very 
risky.
    I spoke earlier about the ballistic missile defense goals 
the President laid out in 2002. In addition to directing us to 
field defenses for the United States, the President directed us 
at that time to cooperate with friends and allies to extend the 
benefits of missile defenses to them as well.
    Since then, we have embarked upon a number of important 
missile defense initiatives with our international friends and 
partners. We have worked with the United Kingdom to upgrade the 
early warning at Fylingdales so that it can perform a ballistic 
missile defense mission.
    We have worked with Denmark to achieve agreement to allow 
us to upgrade the early warning radar at Thule, Greenland. We 
continue to work with Israel on the Arrow program. Our own 
Patriot system is widely deployed and is available for export 
to a number of countries.
    Germany and Italy are our partners in the medium extended 
range air defense system, or MEADS. We signed a framework 
memorandum of understanding on missile defense cooperation with 
Australia in 2004.
    And we are negotiating a defense technical cooperation 
agreement with Russia to facilitate both government-to-
government as well as industry-to-industry missile defense 
cooperation. At the same time, we continue to seek practical 
areas of cooperation with Russia on a bilateral basis as well 
as in the NATO-Russia context.
    One particularly good news story in our international 
ballistic missile defense is our cooperation with Japan. The 
successful test that we just had has already been noted. Japan 
has committed to spending the equivalent of roughly $1 billion 
on ballistic missile defense, making it our largest 
international partner.
    If you look at the map of Japan's neighborhood, and if you 
consider that Japan was the country that North Korea launched a 
ballistic missile over in 1998, you can understand the level 
and the intensity of their interest in this program.
    We have agreed with the Japanese to work together to 
develop a more capable sea-based interceptor that will improve 
the defense of both the U.S. and Japan. That is the larger 
standard missile.
    I am particularly pleased that the government of Japan has 
agreed to evaluate the optimum deployment site for an X-band 
radar on its territory that will help defend both the United 
States and Japan. In addition, the U.S. and Japan are taking 
the steps necessary to share ballistic missile defense 
information with one another.
    We also are considering fielding long-range missile defense 
interceptors and radars in Europe. There is roughly $120 
million in the President's fiscal year 2007 budget request to 
begin work on this project.
    Such a site would house interceptors very similar to those 
that we have currently have fielded at Fort Greely and at 
Vandenberg Air Force Base in California. Fielding such a 
capability would improve the defense of the United States 
against long-range missiles, especially those launched from the 
Middle East, and it would also begin to extend missile defense 
to our European allies, protecting their populations from 
attack and reducing the risk of coercion or blackmail.
    The U.S. Government has held consultations with a number of 
allies, beginning in 2002, about their willingness to host 
missile defense interceptors. We intend to continue those 
consultations in the near future with allies who have expressed 
interest.
    We are currently in the process of notifying those 
countries, and I do not want to get ahead of that process 
today. But that said, I would be happy to follow up with the 
subcommittee in the near future with more details of what we 
are doing in this regard.
    Mr. Chairman, Mr. Reyes, thank you very much for the time 
and the committee's time today. I look forward to answering 
your questions and those of other subcommittee Members. Thank 
you.
    [The prepared statement of Secretary Flory can be found in 
the Appendix on page 96.]
    Mr. Everett. Thank you, Mr. Flory.
    Mr. Reyes.
    By the way, we will limit our Members to 5 minutes. I will 
ask them to be respectful of that time so that all Members can 
have a shot at getting a question in. And then we will go as 
many rounds as we have to.
    Mr. Reyes.
    Mr. Reyes. Okay. Thank you, Mr. Chairman. I will try to 
cover this briefly.
    General Dodgen, based on current tests and procurement 
plans, when do you anticipate or expect that THAAD, the THAAD 
system, will be ready to be transferred to the Army for 
operational deployment?
    And does the Army have a position on how many successful 
flight tests need to be completed before they consider THAAD 
ready for operational transition?
    And then the last question is what will be the process to 
determine when that transition to the Army by THAAD will be 
accomplished?
    General Dodgen. Thank you, Congressman Reyes. Let me start 
from the back of the question and go forward. We are in the 
middle of negotiations now with the Army and the Missile 
Defense Agency on exactly what those procedures--and we have 
come to a lot of agreement.
    And I think the agreement we have right now and the 
understanding we have right now--there is no doubt that on 9/11 
when the THAAD batteries are ready for operation, there will be 
United States Army soldiers that are manning those units 
wherever they may be deployed around the world.
    The Army test agency has been intimately involved in the 
test program with MDA, as described by Mr. Duma in his 
statement.
    And while I am not sure exactly how many test we ultimately 
see required, because we will continually test the program 
throughout the life of a particular weapons system, I will tell 
you that the Army's very comfortable with the test program and 
that it is meeting what we think are appropriate testing to 
operationalize the system.
    I think the system is coming along very well. The 
successful test was a step in the right direction. There are 
four additional tests later this year. We look forward to doing 
those tests.
    And inherent in the mechanism that MDA does, soldiers and 
operators are involved in every one of those tests, so there is 
a growing exercise from test to test. But the Army is very much 
looking forward to gaining that capability, putting it into our 
inventory.
    And at the same time this year we will be determining what 
the ultimate number of batteries and missiles we will need for 
the defense of our nation.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Everett. Oh, thank you.
    Dr. Schwarz.
    Dr. Schwarz. For anyone who cares to answer--and I am on 
the learning curve on this topic, gentlemen, so--but can you 
tell me what are the advantages or disadvantages in airborne 
laser intercept as opposed to a kinetic energy interceptor, A?
    And B, could a laser interceptor, which I believe has got 
to be on an airborne platform--can that be scrambled quickly 
enough to intercept a missile in the boost phase?
    General Obering. Congressman, I will take that, if you do 
not mind. First of all, the advantages and the disadvantages of 
each. With a directed energy weapon like airborne laser, one of 
the significant advantages, of course, is you cannot outrun 
it--instantaneous speed of light transmission.
    Also, a tremendous advantage in terms of its applicability 
to all ranges of missiles, so it can attack the short-range as 
well as all the way up to the intercontinental range missiles.
    It can operate in a concept of operations not unlike what 
we do today with our Joint Surveillance Target Attack Radar 
System (STARS) aircraft, our Airborne Early Warning Control 
System (AWACS) aircraft, in establishing orbits. And then they 
are supported, obviously, by protective layers and tankers to 
be able to do that. That work we have done. We have worked that 
with the Air Force. And we thought through some of those 
concepts of operation.
    Some of the disadvantages, on the other hand--it is not 24-
hours, 7-day persistent like you could get with a terrestrial-
based capability. But that is why we instituted a KEI, or 
kinetic energy interceptor, program, so that we would not only 
have a risk reduction alternative to the airborne laser, but 
also offers a complementary capability to that.
    The disadvantage with a KEI is it cannot reach out and 
touch the very short range in the short range ballistic 
threats. It is more effective against the intermediate range 
and the longer range threats. But it does give us an 
alternative for that.
    But again, it provides us persistence to the fight, and 
when we can either land-base them or sea-base them, it also 
gives you the flexibility to move as the emerging threats move.
    Dr. Schwarz. In the end, we will have both.
    General Obering. Our intention is that we will----
    Dr. Schwarz. Best-case scenario, in the end, you will have 
both.
    General Obering. In the end, we will have both options to 
choose from, if we have the resources, and the funding, and the 
affordability of both of those systems, we will pursue both of 
those.
    Dr. Schwarz. Thank you, Mr. Chairman.
    Mr. Everett. General, I applaud your optimism.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here. You know we appreciate 
what you do to protect this country and to especially prepare 
us for whatever kinds of challenges we may face in the future. 
I know that each one of you are very affirmed by that beyond 
any words of gratitude that I could have, but I certainly want 
you to know that it exists.
    And having said that, Mr. Flory, if you can express it in 
an unclassified manner, what do you see as our greatest missile 
vulnerability? I mean, would it come from North Korea or China 
as far as our primary concerns?
    And if not, let me know. If so, what would be our default 
systems to try to interdict some type of either singular 
missile or salvo? What would be the things that we would 
default to?
    And then last, what would be our chances of successfully 
intercepting such an attack?
    And perhaps, General Obering, you might want to follow up 
as well.
    Secretary Flory. Congressman Franks, thank you, first of 
all, for your kind words.
    The threats we are most focused on are the what is 
sometimes called the rogue state threats. And Iran and North 
Korea are the main competitors for that title right now.
    I would say that the--and we would be happy to get you 
greater detail in classified form. The tests I mentioned of the 
Taepo-Dong (T.D.) I--what we know about the Taepo-Dong II and 
the development of it suggests that North Korea may be closer 
than Iran today to actually having an ICBM that could reach out 
and hit the United States. The intelligence community assesses 
that Iran could flight-test an ICBM in the year 2015.
    As I mentioned earlier, there is a lot of uncertainty 
involved, but given that the North Korean test of the T.D.-1 
was in 1998, and they have been working on the T.D.-1 but also 
the T.D.-2 for that whole time, I think we have to assume that 
they are closer.
    They also are more advanced in their nuclear weapons 
capability. The U.S. intelligence community assumes that they 
have nuclear weapons. They claim that they have nuclear weapons 
and we believe them.
    We have not actually put our hands on them, not 
surprisingly. We do not have that level of certainty as to 
their numbers. But it is something that we have to assume that 
they have.
    Now, Iran is right now the subject of a great deal of high-
level diplomacy. As you know, there was a meeting of the IAEA, 
and the Iran dossier is going to the Security Council. And I 
hope that some vigorous and tough diplomacy can maybe achieve 
what we have not been able to achieve so far, which is to get 
Iran to back off of its efforts to develop a nuclear weapons 
program.
    On the other hand, we have to be prudent, and we have to 
plan for the possibility that Iran may--either the diplomatic 
efforts may fail or, for whatever reason, Iran may end up with 
a nuclear weapons capability which, in time, when that ICBM--if 
that ICBM is tested and becomes operational, that could be then 
mated to that.
    Now, in the meantime, there are a lot of other things that 
Iran's current missiles, the Shahabs, which have a range of 
about 1,300 kilometers, can already do to make our life more 
difficult. With 1,300 kilometer missiles they threaten a lot of 
our friends and allies in the Middle East.
    By doing that, they also--not only is there the risk that 
they could actually hit these countries, but they have the 
ability to constrain our freedom of action, and we----
    Dr. Schwarz. In the interest of time, Mr. Flory, may I----
    Secretary Flory. Sure.
    Dr. Schwarz [continuing]. Try to just pull that question 
down to an attack on the continental United States? What would 
be our greatest danger there and what would be our chances of 
interdicting?
    Secretary Flory. I will defer to General Obering on the 
operational question, other than to say that we are confident 
that we have pieces in place that could intercept a missile. I 
would say that North Korea is probably going to be in a 
position to do that sooner than Iran.
    General Obering. Sir, with respect to North Korea, I cannot 
get into specifics on the effectiveness, but I will let you 
draw some of your own conclusions. We have actively flight-
tested, as I mentioned in my oral statement, against the Cobra 
Dane sensor, against the Beale radar. We generated fire control 
solutions based on that testing that in the analysis shows that 
they would have been successful. Once we get this kill vehicle 
into its end game, into the terminal basket--it has done a very 
good job, and the testing we have shown to date shows that we 
would have done that on that series of tests.
    With respect to the Iranian threat, until we get sensor 
coverage from that approach, we do not have protection against 
the homeland. That is one of the reasons that we are upgrading 
the Fylingdales radar in the United Kingdom and continuing with 
our work in Thule.
    Dr. Schwarz. Thank you.
    General Dodgen. Mr. Chairman, could I add on to that from 
the operator standpoint?
    Mr. Everett. Yes, and also let me make a brief remark that 
General Obering or General Dodgen, either one of you, could 
comment on.
    The stage we are in now--doesn't that pretty much compare 
to the way we were when the Israelis were when they deployed 
the Arrow missile?
    General Obering. Sir, we are following the very same 
approach, which is we test to where we get a sufficient level 
of confidence that we have a capability. We put it out there, 
because we know we do not have protection, therefore we want to 
get some modicum of protection. And we continue to improve it 
over time. And so we are following very similar approaches.
    General Dodgen. I would like to add to Congressman Franks' 
questions and then answer a question you gave me in your 
opening statement, which is--and I speak for the operators on 
the system that have been manning the system 24/7 since October 
of 2004.
    They have been involved in all the testings. They have seen 
the individual pieces of this system tested. The operational 
capability demonstrations--they have gained a great deal of 
confidence in this particular system for the threat that we 
might be facing at this time in this--and they are very ready 
and very able to put that system into effect if called.
    They are looking forward to the testing which is coming on 
this year because the end-to-end tests will allow us to 
optimize the use of our inventory and maybe change our 
techniques and procedures to get the most out of the missiles 
we have.
    But as far as operating the system they have right now, I 
share their optimism. I share their confidence that they are 
ready to do the job.
    Mr. Everett. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    General Obering, with regards to proposed budget and space-
based test bed, although this year's proposal does not include 
any dollars, starting next year through 2011 there is $569.7 
for a space-based test bed. Can you help us understand what you 
mean by a space test bed, first off?
    And then can you discuss whether or not this test bed will 
include deploying some prototype space-based kinetic energy 
interceptors?
    General Obering. Yes, Congressman. First of all, there is a 
lot that we would like to learn about space and space basing 
when it comes to our sensors, to start with. So the first step 
in that, as I mentioned in my oral testimony, is that we want 
to launch two of our space tracking and surveillance system 
satellites in 2007, and that program is on track to do that.
    Those two satellites along with their cross links allow us 
to begin experimentation to see can we solve the technical 
challenges that are facing us there, what effectiveness is it, 
and how reliable may this system be.
    We intend to follow, as you said, in 2008 and beyond with 
some experimentation that starts us down the path to understand 
some of the technical challenges we face if we eventually 
decide to pursue a space-based interceptor layer.
    Now, we currently do not have any interceptors programmed 
in our budget. All we have are experimentation to understand 
some of the technical challenges, things like netted sensors 
and how you would relate that to a fire control solution from 
space.
    We have the Near-Field Infrared Experiment (N-FIRE), of 
course, which we are launching in 2007 that is part of this 
overall concept as well, in which we can do some of the boost 
phase measurements between what we call the plume-to-hardbody 
handover--otherwise, can you track an object in that arena.
    Mr. Larsen. So you will use N-FIRE for that?
    General Obering. N-FIRE is part of our experimentation, 
exactly. So we think it is prudent that while we encourage the 
debate about whether or not we should have a space-based 
interceptor layer that we base that on some concrete results. 
And so we want to make sure we provide that debate with the 
information that we think we will gain from our 
experimentation.
    Mr. Larsen. I would hope as well that we are part of that 
debate----
    General Obering. Yes, sir.
    Mr. Larsen [continuing]. And that information comes back to 
us so we can participate in that. So with the $569 million you 
are requesting, would that then pay for developmental 
satellites--be deployed as part of this test bed with limited 
defense capabilities? Are you going to be looking at that as 
well? Should we expect to see that as well?
    General Obering. That is something we will come back to you 
and define in more detail what that looks like.
    Mr. Larsen. Yes. With regards to ABL and KEI, last year the 
NDAA included in section 231 a requirement for a comparative 
assessment of capabilities and costs, a report for that. When 
do you expect to complete this report? When do we expect to see 
it?
    General Obering. It should be forthcoming here in the next 
couple of weeks. We have done the majority of that and we will 
provide that to you.
    Mr. Larsen. Can you give us an preliminary thoughts on that 
assessment?
    General Obering. Well, as I say, we are trying to set this 
up to where we have the first flight in 2008 that we can 
understand whether or not we have reached the knowledge point 
for the KEI program as well as the airborne laser.
    There are advantages and disadvantages to both, as I 
briefly mentioned earlier.
    Mr. Larsen. Right.
    General Obering. And so a lot of that will basically say 
that we are going to try to retain our options as long as we 
can and understand more. Airborne laser has achieved some great 
success last year.
    However, we have a long way to go there. We have got to 
integrate that laser on the aircraft. We still have to go 
through the active flight tests and the high-power lasing. And 
so we believe that we have a lot more to learn before we can 
make a final decision.
    Mr. Larsen. That sort of gets up to a follow-up point, 
then, that I had about just kind of being aware of the 
potential cost of these systems before we--well, we have to 
make some decisions about the budget here this year for 2007, 
including the $631 million for ABL and $405 million for KEI, so 
that report--to the extent that we can certainly get that 
before we delve into markup would be a great help.
    I will end the questions right there. I have got another 
set of questions on different topics for another witness, so I 
will just end there.
    Mr. Everett. Mr. Spratt.
    Mr. Spratt. Thank you, Mr. Chairman.
    And thanks for your testimony, and I am sorry I was late. I 
appreciate your forthcoming presentations. I want to see if we 
can link together the testimony.
    Mr. Duma, I understand you from past statements to say that 
the ballistic missile defense testing regimen was not realistic 
enough. You seem to testify today that we have made strides in 
that direction over the last year.
    But you also state in your testimony flight testing to date 
has not yet reduced the risk to the point where General Obering 
is ready to execute an operationally realistic flight test.
    What is missing in the testing regimen now that needs to be 
added to it to make it realistic?
    Mr. Duma. Well, the fundamental technical unknown at this 
point is to demonstrate the intercept capability on the ground-
based interceptor. We have modeled that. We have done a 
tremendous amount of work down in Huntsville and actually 
across the nation, linking models and simulations together for 
integrated ground tests.
    The big benefit of that has been the inclusion of the 
warfighters, as General Dodgen has stated. That has gone a long 
way to look at the tactics, techniques, procedures, the 
integration problems that we are facing to get the 
communications flow.
    But the technical unknown right now--and while we have 
demonstrated technology for hit-to-kill, we have not done it on 
the operational booster and operational kill vehicle. We did 
fly those for the first time successfully, but that was without 
a target. The booster operated as expected. The kill vehicle 
operated as expected and maneuvered as expected. But that was 
not against a target.
    So we need to get a target up there. And you may recall 
from approximately a year ago we expended two targets but no 
ground-based interceptors, because of other problems, so we 
need to close that loop.
    Mr. Spratt. Until that is done, that loop is closed, can we 
state with confidence that a long-range missile can be 
intercepted by our system if called upon to do so?
    Mr. Duma. We have all the pieces in place to be able to try 
that. I cannot tell you with certainty that we can do it yet. 
We have not done that end-to-end demonstration.
    Should a launch occur today, I would certainly hope the 
operators would put it on alert and try the best they can with 
what they have, but the testing to date has not confirmed that 
you could count on that.
    Mr. Spratt. Thank you, sir.
    General Obering, as I look at your budget, it is $10.4 
billion all together, including PAC-3 and MEADS. In addition, 
the Air Force is paying for SBIRS-high, but it is a component 
of your system. That is about $670 billion. The two together 
are $11 billion.
    And we do not know where SBIRS-low is. I do not believe 
there is a breakout for Space Tracking Surveillance System 
(STSS), is there, or whatever that----
    General Obering. Yes, sir.
    Mr. Spratt [continuing]. In the line?
    General Obering. Yes, sir.
    Mr. Spratt. I beg your pardon. So that is included. If you 
include SBIRS-high, then we are talking about $11 billion this 
year, but almost all of that, as Mr. Larsen was saying, is 
already T&E.
    What is the procurement? What is the likely acquisition 
cost of these systems if they are brought to fruition, proven 
to work? What is the far end of the effort that we are doing 
now when it comes to fielding all of this stuff that we are 
developing and proving?
    General Obering. Well, Congressman, I cannot give you a 
single number. And the reason I cannot is because we are trying 
to pace this program based on what we see as the threat 
development and what we see as the technology development and 
the maturation of the system.
    So what we are doing is trying to manage the program within 
the budget that we have been given and the top line authority 
that we have been given. I have responsibility of that amount 
that you mentioned. I have responsibility for $9.3 billion of 
that.
    And if you look across, it looks about that level, about 
$1.5 billion to $2 billion of that per year goes to fielding, 
and the rest of it goes to development of continuing 
improvement of the system.
    And what we will do is we will field as maturity and as the 
knowledge-based testing presents itself to justify that and 
continue that, and we will produce the rates that we think we 
need to keep apace and ahead of what we see as the threat 
inventories.
    Mr. Spratt. You have got a full plate, I think you would 
agree.
    General Obering. Yes, sir.
    Mr. Spratt. Lots of things to bring together--GBI, KEI, 
ABL. There might be a tradeoff between the two of those. You 
are looking at an MKV to replace the EKV, and as you go along 
with the spiral development the technology gets more and more 
sophisticated.
    I am a little dismayed at the notion that we would start by 
fiscal year 2008 adding to this plate--multiple systems--
another system that could be hugely expensive, and that is a 
space-based system.
    General Abrahamson came to the conclusion years ago that to 
field a space-based system you would have to have a dramatic 
reduction in the cost of lift. Now, he was supportive of the 
idea, but he also included in his SDI program a lift cost 
production program seeking a reduction by a factor of three or 
four in the cost of lifting a pound of payload into space.
    Would you anticipate having to do the same thing to make 50 
to 100 space-based interceptors a feasible undertaking?
    General Obering. Well, yes, sir. That is part of what I 
mentioned in the experimentation program that we would try to--
as part of that experimentation program is miniaturization and 
how much weight can you get out of some of these payloads that 
you would have to do.
    But General Abrahamson, as you reflected--the 
constellations that were envisioned at one time were much, much 
larger than what we are talking about now, when you add a layer 
to an already-existing terrestrial-based system. But we have a 
lot of work to do there.
    About the $10,000-per-pound-to-orbit cost--that has to be 
driven down. A lot of those are the challenges that we would be 
facing in any type of an approach or movement to space.
    But if I can address your point about the affordability, 
that is another advantage as to why we are proceeding the way 
we are. We will not embark on a program if we do not think it 
is affordable. We may have tremendous success with airborne 
laser all the way through to lethal shoot down. But if we do 
not think it is an affordable capability, we will not pursue 
that.
    That is part of the criteria that we apply to these 
programs when they get to their knowledge points. It is not 
just knowledge points about technical performance. It is also 
about cost affordability. And we will reserve the right to make 
those decisions.
    As we get to that point, there will be ebbs and flows 
throughout the program, so there will be programs that will be 
coming off of their fielding requirements and others that will 
be expanding.
    That is why we think that this is a prudent investment, 
because even with all of those programs thrown in that you just 
mentioned, they are still less than 3 percent overall of our 
defense budget.
    Mr. Spratt. Thank you very much.
    Mr. Everett. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    I have a question for you, General Obering. Both the 
Central Intelligence Agency and the Defense Intelligence 
Agency, in an unclassified assessment of the threat that we 
face, have stated that it is their belief that North Korea is 
capable of using rudimentary countermeasures in an ICBM attack 
against the United States.
    When will MDA test the GMD system against these kinds of 
countermeasures?
    General Obering. We already have, which is a little-known 
fact. But we have demonstrated--the successful intercepts that 
occurred in 1999 to 2002--there were countermeasures involved 
in those intercept tests. Having said that, we plan three more 
flight tests this year, as I said.
    If we are successful in that test series, we will--we have 
already actually given the direction to look at how we could 
add countermeasures to part of that test regime.
    Mr. Reyes. And in those tests, do we mimic or mirror the 
basic or the rudimentary types of countermeasures that both 
North Korea, Iran and possibly others might use?
    General Obering. Well, Congressman, the intelligence 
community may have much better insight into that than I do, but 
I do not know of anybody that can say with any certainty what 
kind of countermeasures those countries are capable of.
    However, based on the physics, based on what you would try 
to conjecture in terms of vulnerabilities, those are the kind 
of things that we would use as part of our test program.
    Mr. Reyes. All right.
    Thank you, Mr. Chairman.
    Mr. Everett. All right.
    Dr. Schwarz.
    Dr. Schwarz. Secretary Flory, I think this is probably best 
directed at you. And the way to ask this so that, you know, my 
question does not make you answer that that information is 
classified--so let me give it a shot.
    In unclassified terms, what is the near-term ballistic 
missile threat to the United States? What additional 
capabilities might we need to face that threat? And how likely 
is it that a non-nation state will ultimately possess or could 
conceivably possess ballistic missiles and the pertinent launch 
capability?
    Secretary Flory. I would say in terms of the near-term 
threat, I would probably go back to some of my response to Mr. 
Franks' question. In terms of a long-range missile, an ICBM 
threat, we know what North Korea has done--its 1998 test of the 
Taepo-Dong I. We know that it is working on the Taepo-Dong II.
    As I mentioned, the intelligence community thinks that Iran 
may have an ICBM, might be able to flight-test an ICBM by 2015. 
So in this setting, and bearing in mind the classification 
issue, that is about all I think I can say on that, although we 
would be happy to get you a briefing on the details.
    In terms of additional capabilities, I would ask my 
colleagues to jump in on that, but I think--what we are working 
on now is designed to deal with the kind of missile, the kind 
of trajectory, the kind of threat we are talking about here, so 
I think we are on a path to that.
    Now, I would put one caveat. A couple of countries have 
tested shorter-range missiles launched from ships, so that is 
something--the shorter-range missiles exist. That is something 
that hypothetically could happen in a much shorter time frame, 
because all the elements of it exist. And that would be 
something very challenging.
    In terms of non-nation states getting a hold of ballistic 
missiles--excuse me, I think non-state--maybe I garbled that--
non-state actors getting a hold of ballistic missiles, we have 
to be concerned about that.
    North Korea has shown a willingness to sell weapons to all 
and sundry. Iran's ties with terrorism, which go back for a 
long time, and represent a consistent element of Iran's 
national strategy, are other concerns.
    On the other hand, I think that with respect to non-nation 
states, this would be challenging. I mean, they would have to 
use a nation state somewhere to launch it from, so I think they 
are--we know that there are terrorist groups, Al Qaida in 
particular, that are working on trying to get together 
materials for radiological and nuclear weapons. We know that 
they have pursued chemical and biological.
    But I would think, at least in the shorter term, those 
would be more likely options for them to pursue.
    Dr. Schwarz. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Everett. Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman.
    And, General Obering, I would direct the question to you, 
with the understanding if anyone else has a different 
perspective or a better one--I am wondering, we were briefed by 
the high-altitude electromagnetic pulse, the EMP, commission 
here last year.
    And that really reassessed in my own mind some of the 
potential priorities that we may face, and with the potential 
that even maybe a Scud missile or something of a more 
rudimentary level might be used to elevate some type of 
enhanced nuclear electromagnetic pulse weapon.
    Having said that, do we have any focus in the direction of 
being able to interdict something that would come from our own 
homeland, you know, to be elevated high enough to be detonated 
over our homeland, or something that would, say, come off the 
near term coastline that would probably be more, like you 
mentioned, a rogue state attack?
    So we have any sensing capability or any response 
capability for something like that? Are we even thinking in 
that direction?
    General Obering. Mr. Franks, actually, the big problem 
there is sensors and sensing. And we have taken steps to cover 
that--what we call an asymmetric threat that would be off the 
coast, and upgrading the sensors that we have existing today to 
be able to meet that threat.
    We could also choose to deploy assets that are available to 
protect some of our higher population areas--that type of 
thing--that is a decision that could be made in the future. But 
in terms of the ability, the technical ability, we have that 
inherent as part of our program.
    I will not comment on internal launches. That is something 
that we have nothing in our program today that would address 
that.
    Mr. Franks. Well, I guess, you know, it occurs to me that 
maybe the greatest danger that we would face would be something 
along those lines, because even in Iran, as insane as that 
government is, it occurs to me that if they did have a missile 
capable of reaching the United States, even though they have to 
know what our response would be, they have to, it seems to me 
like they would try to pass some type of technology off to 
someone that could launch it closer, that they could ostensibly 
have no fingerprints on it.
    But you are saying to me that at least that equation is 
being considered carefully, and I guess my add-on to that would 
be how do you assess that threat in terms of potential--put it 
in priority for me as far as, you know, some ICBM coming from 
North Korea.
    It occurs to me that we are almost more likely to face some 
sort of close-in threat like that from some terrorist than we 
are from some nation.
    General Obering. Congressman, I would let the intel 
community comment on the likelihood, but I will comment on the 
technical feasibility. And I believe it is not that difficult 
to do.
    And in fact, in August of 2004 we actually launched that 
type of a missile off the coast as part of a target series that 
we are using in a test program with the Arrow missile. And so 
we do not assess the difficulty technically of being that hard 
to do.
    But the likelihood, the motivations and that type of thing, 
I would leave that to the intel community.
    Mr. Franks. Sure. But you are saying to me that we have the 
technical capability to sense and acquire and respond to 
something like that if it were necessary.
    General Obering. We have that as part of our program, 
planned program.
    Mr. Franks. Okay. Thank you.
    Mr. Everett. Mr. Spratt, we are going to reserve a place 
for Mr. Larsen, if you are ready to go with a second round.
    Mr. Spratt. You have all touched upon this in your 
testimony, but it would be useful if particularly you, General 
Obering, or General Dodgen, you could kind of lay out for us--
the Ground-based Initiative (GBI), for example. How many more 
tests do you have to go before you think you will be able to 
say with proven confidence that this is an operationally 
effective system? And what are these tests?
    General Obering. The tests that we have planned for the 
remainder of the year, I will walk through those very quickly. 
We have a target launched out of Kodiak, Alaska, that will fly 
across the Beale radar, and we will launch an interceptor out 
of the Vandenberg Air Force Base, and we will do what we call a 
target characterization for this flight. That will occur in the 
late May, early June time frame.
    We will repeat that same type of profile in the latter part 
of the summer and then again in the latter part of the fall. 
And so those are what we would consider to be very 
operationally realistic tests because they are threat 
representative targets. That is an operational radar, the Beale 
radar.
    They are operational crews manning the consoles. There will 
be an operational fire control system that will be used, 
operational hardware and software. And of course, we have an 
operational configured interceptor.
    And so we believe that that begins to fit the bill of a--
the closest that we can come to an end-to-end test other than 
trying to take a missile off the coast of North Korea and 
launch it back this way, which is very improbable and not 
practical.
    General Dodgen. If I may deal with it from an operational 
question, in a way the crews are dealing with it, the 
uncertainty that we have in the performance of a system is 
dealt with at an operational level right now by the potential 
of doing multiple engagements on the same incoming missile.
    As we see this test that is unfolding this year, we will 
get a better understanding of just exactly the effectiveness of 
the Exo-atmospheric Kill Vehicle (EKV) in the end game and the 
interceptor, and we will go and modify our firing doctrine in 
very short order so that we are gaining the effects we want.
    At the same time, because this is the year when our 
inventory is going to be going up significantly--so I think 
they marry up pretty well that as our uncertainty goes down, 
and our confidence goes up, we will be modifying our firing 
doctrine to achieve the effect.
    But we deal with the uncertainty with the ability to shoot 
multiple times at the same target today.
    Mr. Spratt. Going back to the electromagnetic question, 
once again I think your predecessors determined some time ago 
that if the attack were truly a massive attack in the days when 
we were still conceiving the Soviet Union or the former Soviet 
Union as our principal nuclear adversary, there was a general 
rule of thought that if the attack was more than 100 RVs or 
greater magnitude than that, that the electromagnetic effects 
of intercepting a number of these RVs coming at us would be 
such that the system soon would be--its operation would be 
extremely problematic.
    Do you still feel that way, that if we had a large attack 
against the system, and if we were successful and particularly 
if they were fused so that they would detonate upon collision, 
salvage-fused, would that thwart the effectiveness of this 
system if the--if so, what would be your estimate of the limit 
at which this problem--this became a problem?
    General Obering. Well, first of all, sir, the system that 
we are fielding today clearly is not designed for massive 
attack. It is not designed for that mission. It is designed to 
handle the degrees of nuclear detonation that you talked about 
with respect to the numbers that we would potentially be 
facing, and the inventories that we have fielded, and the 
capabilities that we have in the system, and we have further 
steps that are identified to even make that more effective 
against that type of a detonation that could occur.
    But it is not designed for a massive attack, and it is 
designed right now for the rogue nation threat, as we 
mentioned.
    Mr. Spratt. Thank you.
    Mr. Everett. Well, let me give it a shot while--I know Mr. 
Larsen wants to have some questions.
    General Obering, as long as you are still up at bat, let me 
ask you about a--last year, this committee and the House Armed 
Services Committee, with the help of my colleagues here, 
authorized an additional $100 million for further testing.
    And I think the appropriators added another $50 million. I 
think you ended up getting $150 million. Talk to me a little 
bit, or talk to the committee a little bit, if you will, on how 
that money was used and what good you think came from it.
    General Obering. Sir, it was tremendously advantageous for 
us to get that. What we used that money for specifically is 
over $100 million went directly into our test program.
    One of the things I did last year upon the recommendation 
of the independent review team and the mission readiness task 
force was to divert more of our interceptors into our test 
program, so we actually diverted four interceptors from what 
would have been silo emplacement into our test program.
    And they also recommended that we do additional ground test 
and additional qualification test with components. For example, 
we stack fired an interceptor this last November as part of our 
ongoing qualification and risk reduction testing. And so what 
that money did was allow us to offset some of those impacts of 
having to divert those boosters into the test program.
    It also allowed us to integrate the sensors that are coming 
online this year, the sea-based X-band, the forward-based X-
band that we are deploying, and that--especially the sea-based 
X-band--greatly enhances our test bed as well, so we were able 
to use that money for that, as well as provide $25 million for 
mooring for that sea-based X-band off of Adak, Alaska.
    So that money went directly into our testing and helped us 
to offset some of the impacts from our diversion of 
interceptors into that test program.
    Mr. Everett. General Dodgen, can you update us, please, on 
the Army's progress in directing the Patriot friendly fire that 
we noted in Operation Iraqi Freedom? And also, do you have 
adequate funding to complete upgrading all the batteries out 
there?
    General Dodgen. Thank you, Mr. Congressman. With 
congressional help, we were able to reprogram $43.1 million to 
take care of the immediate needs in the aftermath of Iraqi 
Freedom. We did a very good scrub of what are the combat-
related improvements we needed to do. And they were in three 
categories.
    The first one was better connectivity on the battlefield. 
The second one was retraining our crews in Tactics, Techniques, 
and Procedures (TTPs) and reinventing the way we did friendly 
protect. And the third one was fixing the software 
classification things in our software build and the Patriot 
system, the latter being the thing that took the longest.
    We used that money to accelerate the fielding of the 
battery command posts that are out there now which gave every 
one of the Patriot batteries Link 16 connectivity and datalink 
connectivity assured.
    We have retrained our crews over the last two years. We 
have redesigned the next software build which is post-
deployment build six. It will be ready to put into the system 
at the beginning of next year, and that will be the extent of 
those improvements.
    And we are very confident the TTPs will take care of us 
until the software gets into the system, and when the software 
gets into the system, we will be very robust and have those 
things corrected.
    Mr. Everett. Well, thank you. I will just simply say this 
has been of long interest of this subcommittee. Some years 
back, when we first noticed this, we put about $20 million in 
there for you to take a look at it. And unfortunately, we lost 
it in the appropriation process. But that is good news.
    Mr. Larsen, we have been carrying the weight here until you 
got back.
    Mr. Larsen. I did not know I had that much pull on the----
    Mr. Everett. Absolutely.
    Mr. Larsen. Yes, sure. Yes.
    A quick follow up for General Obering and the space-based 
test bed. The GMD system evolved from experimental assets 
deployed in Alaska into an operational system, and I think 
perhaps the coda of my question in the last round might be 
something like this.
    As you move forward through 2011 with the $500 million or 
so, are we kind of moving from experimental to something that 
we assume will be operational, or can you commit to this 
committee right now that if this is--you are just 
experimenting, we are looking at this, and this is not the 
beginning of something that gets so far down the road that we 
cannot say hold on a second, what are the costs on this, why 
isn't this working, how does it work?
    General Obering. No, it is not. I would not characterize it 
like that at all, Congressman Larsen. Again, it is a space test 
bed for just experimentation purposes. We do not have any 
configuration, anything like that, that is laid into our 
program for that intercept.
    Mr. Larsen. Yes. Yes. Thanks.
    Mr. Duma, the 2006 act included a section 234 requiring 
appropriate joint service operational test and violation 
components. As the director, you have to approve the block test 
plan and submit a report when the test is complete.
    And the operational test requirement begins with Block 
2006. Can you describe to the committee your plans for 
implementing that particular statutory requirement and discuss 
your progress to date?
    Mr. Duma. Yes, I can, Congressman. As I said in my opening 
statement, we have worked with the Missile Defense Agency to 
implement a bit of a new test philosophy, and that is any 
valuation-based philosophy to drive, then, the test events 
required to get the information to satisfy the knowledge points 
for the development and the operational capabilities of the 
systems.
    We have begun that effort. And as I said, the approach 
being taken will be incorporated into the next update to the 
integrated master test plan. We did update the integrated 
master test plan based upon the findings and recommendations of 
the independent review team and the mission readiness task 
force.
    Both of those bodies took inputs from the operational test 
community and incorporated them into their recommendations. We 
updated the master test plan based on that. That plan is 
virtually complete, and I believe it is in the final signature 
chain right now.
    And General Obering just told me he had signed it now, so 
that will be out shortly. The next version of that will 
incorporate the evaluation-based test planning.
    Mr. Larsen. So this particular test plan design does not 
reflect evaluation-based----
    Mr. Duma. No, it does not. It reflects the recommendations 
of the IRT and the mission readiness task force.
    Now, that statute also requires reporting, as you know, and 
I have three reports that I am read to provide to Congress. I 
do an annual report which is through my Title X in which I 
report an unclassified summary of the testing that has 
occurred. I have an annual report that I have submitted so far 
in a classified nature on the missile defense test program and 
progress made. That is due February 15th of every year. And now 
this section 234 requires another report on the completion of 
each block. So it starts with Block 2006. That technically ends 
on the 31st of December in 2007, so the report--or to satisfy 
that Article 234 requirement will be in January of 2008.
    Mr. Larsen. All right. I apologize for asking this, but you 
said the classified report that you have is due February 15th. 
Have we received----
    Mr. Duma. You have. I sent that, I think, around the 13th 
of February.
    Mr. Larsen. Just under the wire. All right.
    General Obering, the Navy and MDA is scheduled to select a 
sea-based program for KEI in fiscal year 2007, and do you have 
any concerns about moving forward with that, given that we have 
not actually decided on the KEI or ABL?
    General Obering. We have a study involved in terms of what 
that recommended approach will be, looking at the various 
configurations, ship configurations, and recommendations. That 
is what that entails.
    Mr. Larsen. Okay.
    General Obering. But we will base any type of--even a 
development program on the testing that will occur between now 
and the end of 2008. That is what we mean by a knowledge-based 
approach.
    Mr. Larsen. Okay.
    General Obering. We still do the systems engineering, and 
if you go with a land-based and sea-based version, you have to 
do that allocation of performance and allocation of 
requirements. That is a prudent thing to go do. And in fact, 
that is how you derive your knowledge points. But we fully 
intend to achieve----
    Mr. Larsen. But the dollars are not there to put something 
on a ship----
    General Obering. No.
    Mr. Larsen [continuing]. With the 2007----
    General Obering. No. No.
    Mr. Everett. Thank you, Mr. Larsen.
    Mr. Reyes.
    Mr. Reyes. I just have one last quick question.
    Mr. Everett. Sure, absolutely.
    Mr. Reyes. And this one is for you, General Dodgen. What is 
the Army doing to develop or pursue technology to counter the 
rocket, artillery and mortar attacks? And what is SMDC's role 
in these efforts? And in your opinion, is there sufficient 
research funding for these efforts in the 2007 budget?
    General Dodgen. Well, as you know, we have deployed certain 
guns with the help of this committee, certain guns into Iraq. 
And as a part of that, there has been a joint sense-and-warn 
ability which has been very effective also, which quickly 
senses and warns soldiers so they can take cover. And that, in 
and of itself, has saved a lot of lives.
    So we have something that we have tested as an interim fix, 
and we have deployed, and we are going to deploy more of those, 
and we are going to continue to test those.
    At this time, I think we recognize in the Army that this is 
going to be a threat that is going to stay with us for some 
time, and we are going to have to develop some capabilities for 
the future force. And we are looking at alternatives now, and 
the Army is actually looking at the requirements in building 
something for the future.
    SMDC has always been involved in what I am optimistic 
about, and that is directed energy, a high-energy laser. We 
have recently gone away from chemicals because of its ability 
and its immobility on the battlefield, and now we are actively 
pursuing solid-state lasers that could be packaged in a mobile 
system to do that particular job.
    And that is one alternative that is already funded. It is 
not ready to be accelerated. We have awarded some contracts. We 
want to get up to a certain level of power and make a 
determination then. So we are looking at the future with that 
alternative, directed energy, and we are looking at other 
things.
    So from solid-state standpoint, I think the 2007 is 
properly funded for us to move forward.
    Mr. Reyes. Very good. Thank you very much.
    Thank you.
    Mr. Everett. Thank you.
    And I thank the panel for being here today.
    And I thank my Members for the questions. Obviously, there 
were some in-depth questions that I thought were well put and 
well answered.
    I am personally pleased with the progress that we have 
made, General Obering and General Dodgen, and from where we 
were this time last year. I think that is a step forward. And I 
look forward to the rest of this year.
    I think I actually smell some success out there, big-time 
success. So we are looking forward to that. There will probably 
be some questions for the record, and I would ask you to 
respond to those in real time rather than Washington time, 
which is about 30 days, please. [Laughter.]
    So thank you again. I thank the panel. I thank the Members 
for participating.
    The hearing is adjourned.
    [Whereupon, at 2:52 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 9, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 9, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8987.007
    
    [GRAPHIC] [TIFF OMITTED] T8987.008
    
    [GRAPHIC] [TIFF OMITTED] T8987.009
    
    [GRAPHIC] [TIFF OMITTED] T8987.010
    
    [GRAPHIC] [TIFF OMITTED] T8987.011
    
    [GRAPHIC] [TIFF OMITTED] T8987.012
    
    [GRAPHIC] [TIFF OMITTED] T8987.013
    
    [GRAPHIC] [TIFF OMITTED] T8987.014
    
    [GRAPHIC] [TIFF OMITTED] T8987.015
    
    [GRAPHIC] [TIFF OMITTED] T8987.016
    
    [GRAPHIC] [TIFF OMITTED] T8987.017
    
    [GRAPHIC] [TIFF OMITTED] T8987.018
    
    [GRAPHIC] [TIFF OMITTED] T8987.019
    
    [GRAPHIC] [TIFF OMITTED] T8987.020
    
    [GRAPHIC] [TIFF OMITTED] T8987.021
    
    [GRAPHIC] [TIFF OMITTED] T8987.022
    
    [GRAPHIC] [TIFF OMITTED] T8987.023
    
    [GRAPHIC] [TIFF OMITTED] T8987.024
    
    [GRAPHIC] [TIFF OMITTED] T8987.025
    
    [GRAPHIC] [TIFF OMITTED] T8987.026
    
    [GRAPHIC] [TIFF OMITTED] T8987.027
    
    [GRAPHIC] [TIFF OMITTED] T8987.028
    
    [GRAPHIC] [TIFF OMITTED] T8987.029
    
    [GRAPHIC] [TIFF OMITTED] T8987.030
    
    [GRAPHIC] [TIFF OMITTED] T8987.031
    
    [GRAPHIC] [TIFF OMITTED] T8987.032
    
    [GRAPHIC] [TIFF OMITTED] T8987.033
    
    [GRAPHIC] [TIFF OMITTED] T8987.034
    
    [GRAPHIC] [TIFF OMITTED] T8987.035
    
    [GRAPHIC] [TIFF OMITTED] T8987.036
    
    [GRAPHIC] [TIFF OMITTED] T8987.037
    
    [GRAPHIC] [TIFF OMITTED] T8987.038
    
    [GRAPHIC] [TIFF OMITTED] T8987.039
    
    [GRAPHIC] [TIFF OMITTED] T8987.040
    
    [GRAPHIC] [TIFF OMITTED] T8987.041
    
    [GRAPHIC] [TIFF OMITTED] T8987.042
    
    [GRAPHIC] [TIFF OMITTED] T8987.043
    
    [GRAPHIC] [TIFF OMITTED] T8987.044
    
    [GRAPHIC] [TIFF OMITTED] T8987.045
    
    [GRAPHIC] [TIFF OMITTED] T8987.046
    
    [GRAPHIC] [TIFF OMITTED] T8987.047
    
    [GRAPHIC] [TIFF OMITTED] T8987.048
    
    [GRAPHIC] [TIFF OMITTED] T8987.049
    
    [GRAPHIC] [TIFF OMITTED] T8987.050
    
    [GRAPHIC] [TIFF OMITTED] T8987.051
    
    [GRAPHIC] [TIFF OMITTED] T8987.052
    
    [GRAPHIC] [TIFF OMITTED] T8987.053
    
    [GRAPHIC] [TIFF OMITTED] T8987.054
    
    [GRAPHIC] [TIFF OMITTED] T8987.055
    
    [GRAPHIC] [TIFF OMITTED] T8987.056
    
    [GRAPHIC] [TIFF OMITTED] T8987.057
    
    [GRAPHIC] [TIFF OMITTED] T8987.058
    
    [GRAPHIC] [TIFF OMITTED] T8987.059
    
    [GRAPHIC] [TIFF OMITTED] T8987.060
    
    [GRAPHIC] [TIFF OMITTED] T8987.061
    
    [GRAPHIC] [TIFF OMITTED] T8987.062
    
    [GRAPHIC] [TIFF OMITTED] T8987.063
    
    [GRAPHIC] [TIFF OMITTED] T8987.064
    
    [GRAPHIC] [TIFF OMITTED] T8987.065
    
    [GRAPHIC] [TIFF OMITTED] T8987.066
    
    [GRAPHIC] [TIFF OMITTED] T8987.067
    
    [GRAPHIC] [TIFF OMITTED] T8987.068
    
    [GRAPHIC] [TIFF OMITTED] T8987.069
    
    [GRAPHIC] [TIFF OMITTED] T8987.070
    
    [GRAPHIC] [TIFF OMITTED] T8987.071
    
    [GRAPHIC] [TIFF OMITTED] T8987.072
    
    [GRAPHIC] [TIFF OMITTED] T8987.073
    


      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 9, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. Everett. I understand that the Missile Defense Agency has 
invested over $250 million in the development of radiation hardened 
electronics. Additionally, DTRA has invested approximately $150 million 
and the Defense Production Act has invested over $100 million. 
Recognizing the importance of this technology and the large amount of 
funding that has been invested, how do you plan to utilize the results 
of these efforts? Will there be a centralized data base to prevent the 
unnecessary duplication of effort and the optimum utilization of the 
results by the prime contractors?
    General Obering. The Ballistic Missile Defense System began 
improving its nuclear survivability this Fiscal Year. Two Ballistic 
Missile Defense System elements, Ground-based Midcourse Defense and 
Aegis Ballistic Missile Defense, received funds to address 
electromagnetic pulse protection, radiation hardening against 
persistent radiation from high altitude nuclear blast, and to conduct 
the assessment study of nuclear survivability capability for the 
potential upgrades using radiation hardened electronics to enhance BMDS 
capability in accordance with our High Altitude Exo-atmospheric Nuclear 
Survivability standard. Our Future Years Defense Plan requests nuclear 
survivability funding to address High Altitude Exo-atmospheric Nuclear 
Survivability requirements next Fiscal Year for the Multiple Kill 
Vehicles, Terminal High Altitude Area Defense, and the Forward Based X-
band Transportable radar. I have a table to submit for the record that 
identifies our current and future funding plan.

                                         PB07 MDA Nuclear Survivability
                                              [Dollars in Millions]
----------------------------------------------------------------------------------------------------------------
                  BMDS Element                     FY06     FY07     FY08     FY09     FY10     FY11     Total
----------------------------------------------------------------------------------------------------------------
Aegis BMD                                              3        4        4        6        7        5         29
----------------------------------------------------------------------------------------------------------------
GMD                                                    5        7       24       66       55       34        191
----------------------------------------------------------------------------------------------------------------
MKV                                                            12       26       50       72       91        251
----------------------------------------------------------------------------------------------------------------
FBX-T                                                                             1        2        2          5
----------------------------------------------------------------------------------------------------------------
THAAD                                                                    3       25       25        3         56
----------------------------------------------------------------------------------------------------------------
Total                                                  8       23       57      148      161      135        532
----------------------------------------------------------------------------------------------------------------

    The Missile Defense Agency will include hardened electronics, co-
funded by the Missile Defense Agency, the Defense Threat Reduction 
Agency, and the Defense Production Act, in future Ballistic Missile 
Defense System equipment deployments.
    The Missile Defense Agency has a Small Business Innovation Research 
contract to build a radiation hardened catalog that will aid in access, 
recognition, and utilization of DoD radiation hardened electronics 
data. Next year, to prevent unnecessary duplication of effort, 
Ballistic Missile Defense System contractors will be able to use this 
catalog to search for hardened technology via a database warehouse 
using a secure Internet-based protocol.
    In addition to the Small Business Innovation Research contract I 
just discussed, the Agency also participates in the Director of the 
Defense Research and Engineering's Radiation Hardened Oversight Council 
to mitigate unnecessary duplication of effort and optimize utilization 
of radiation hard technology.
    Mr. Everett. As the Army's Patriot System remains the cornerstone 
for theater air and missile defense, I understand the Army Chief of 
Staff recently decided the need to upgrade 12 Patriot batteries from 
the older Configuration-2 to the upgraded Configuration-3 which permits 
the battery to fire all missile versions to include the PAC-3. Given 
that decision was only recently arrived at, would additional funding in 
FY07 permit the Army to begin moving to that end-state more quickly and 
get that enhanced capability to our troops sooner in the face of the 
growing threats world-wide?
    General Dodgen. Yes. The Army Chief of Staff directed the pure 
fleeting of all Patriot battalions to configuration-3 to occur no later 
than the end of FY09. Due to the long lead time necessary for industry 
to produce, test, and install the upgrade kits, funding is required in 
FY07 to meet the 2009 timeline. If funded in the FY07 appropriation, a 
contract would be awarded upon receipt of funds. This requirement is 
currently on the Army's unfunded 1-N list.
    Mr. Everett. Would acceleration of moving the Patriot force to a 
``pure fleet'' configuration-3, in other words PAC-3 capable force, 
starting in FY07 improve the Army's operational flexibility to meet 
global threats to our friends forward deployed troops?
    General Dodgen. Yes.

    <bullet>  A Patriot configuration-3 system provides substantially 
increased capability against cruise and ballistic missiles in terms of 
Probability of Kill (Pk), defended area footprint, lethality [``hit-to-
kill'' missile technology], Weapons of Mass Destruction (WMD), and 
saturation attack.
    <bullet>  Additional funding in FY07 to pure-fleet the Patriot 
force to configuration-3 improves the Army's missile defense 
operational flexibility by:

        <all>  Enabling the requisite number of ``like Patriot 
battalions'' (config-3) to implement the Army's Force Generation model 
(ARFORGEN) to ensure a continuous, rotational, and trained presence for 
Combatant Commanders and Allies in forward deployed locations.
        <all>  Negating capability deltas and interoperability 
challenges between Patriot Configuration-2 and Configuration-3 systems 
enables attainment of Army's goal of modularity, which provides 
flexibility to deploy tailorable and modular Patriot task 
organizations.
        <all>  Streamlining the Army's institutional training and 
logistics processes to maintain and sustain an operational Patriot 
force structure.

    Mr. Everett. The Army has taken steps to address the unfortunate 
fratricide incidents experienced early in Operation Iraqi Freedom 
involving Patriot. There have been improvements to communications 
resources and software along with training and other measures. Along 
with these and other improvements to the Patriot system, if an upgrade 
to the radar were available to achieve a measure of organic combat 
Identification not now present; would you support additional funding to 
develop that onboard capability?
    General Dodgen. Yes, upgrades to the radar are available which 
would provide a significant organic combat identification capability. 
This capability has been demonstrated in an engineering test 
environment, and if implemented into the tactical system, would greatly 
improve the protection of friendly aircraft. We fully support 
additional funding to develop the onboard capability.
    Mr. Everett. Are there efforts currently underway to improve 
Patriot and other air defense systems with technologies and 
improvements that will reduce or eliminate the likelihood of firing 
upon friendly US or coalition aircraft?
    General Dodgen. Yes, there are several efforts underway to 
incorporate new technologies to greatly reduce the likelihood of firing 
on a friendly aircraft.
    - New Identification, Friend or Foe (IFF) Mode 5/Mode S. These 
capabilities are currently being developed for the Patriot system. 
However, with the present radar/IFF interface, the utility of these new 
capabilities is greatly limited. The full benefits of the new IFF modes 
cannot be realized with the current interface. An upgrade to the radar 
processor and IFF interface (unfunded) are required to realize the 
benefits of the new IFF capabilities.
    - New radar processing techniques. These techniques are currently 
in use by other services, and have shown significant capability to 
improve combat identification. The techniques have been demonstrated 
with the Patriot radar in an engineering demonstration environment; 
however no funding is available to incorporate them into the tactical 
system.
    Mr. Everett. The Army recently concluded a need to standup an 
Integrated Air & Missile Defense program office for the purpose of 
working to facilitate engineering and open architecture design 
activities in support of the Army System of Systems initiative in both 
the ongoing SLAMRAAM and Patriot/MEADS Combined Aggregate Programs. The 
FY07 President's Budget request arrived at the Hill before the results 
of this decision could be taken into account. Would additional funding 
in FY07 assist the Army in accelerating its efforts to field a System 
of Systems Integrated Air & Missile Defense capability by 2011?
    General Dodgen. While adequate funds exists to meet the fielding of 
an Integrated Air and Missile Defense architecture by FY11, additional 
funding, if available, could be used to develop those unique and common 
components associated with attaining a more robust capability. 
Additional funding could be used to upgrade software of Patriot 
configuration-3 radars to ensure integration with a common Battle 
Manager, accelerate the Launch Station component to achieve the 
objective 2011 architecture and lastly, assist in the refinement and 
development of the common Battle Management architecture.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES

    Mr. Reyes. In response to my question during the hearing concerning 
your plans for testing the Ground Based Interceptor against 
countermeasures that might accompany a threat-representative ICBM 
warhead, you stated that MDA has already successfully tested the system 
against a target accompanied by countermeasures. Please provide me with 
information about each GBI test that has included countermeasures.
    General Obering. [The information referred to is classified and 
retained in the committee files.]
    Mr. Reyes. Please describe the types of countermeasures that were 
included in these tests.
    General Obering. [The information referred to is classified and 
retained in the committee files.]
    Mr. Reyes. Were these test countermeasures developed based on 
intelligence community estimates of the most challenging types of 
countermeasures that could be developed to stress a missile defense 
system by threat nations?
    General Obering. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. The Army has taken steps to address the unfortunate 
fratricide incidents experienced early in Operation Iraqi Freedom 
involving Patriot. There have been improvements to communications 
resources and software along with training and other measures. Along 
with these and other improvements to the Patriot system, if an upgrade 
to the radar were available to achieve a measure of organic combat 
Identification not now present; would you support additional funding to 
develop that onboard capability?
    General Dodgen. Yes, upgrades to the radar are available which 
would provide a significant organic combat identification capability. 
This capability has been demonstrated in an engineering test 
environment, and if implemented into the tactical system, would greatly 
improve the protection of friendly aircraft. We fully support 
additional funding to develop the onboard capability.
    Mr. Rogers. Are there efforts currently underway to improve Patriot 
and other air defense systems with technologies and improvements that 
will reduce or eliminate the likelihood of firing upon friendly US or 
coalition aircraft?
    General Dodgen. Yes, there are several efforts underway to 
incorporate new technologies to greatly reduce the likelihood of firing 
on a friendly aircraft.
    - New Identification, Friend or Foe (IFF) Mode 5/Mode S. These 
capabilities are currently being developed for the Patriot system. 
However, with the present radar/IFF interface, the utility of these new 
capabilities is greatly limited. The full benefits of the new IFF modes 
cannot be realized with the current interface. An upgrade to the radar 
processor and IFF interface (unfunded) are required to realize the 
benefits of the new IFF capabilities.
    - New radar processing techniques. These techniques are currently 
in use by other services, and have shown significant capability to 
improve combat identification. The techniques have been demonstrated 
with the Patriot radar in an engineering demonstration environment; 
however no funding is available to incorporate them into the tactical 
system.
    Mr. Rogers. The Army recently concluded a need to standup an 
Integrated Air & Missile Defense program office for the purpose of 
working to facilitate engineering and open architecture design 
activities in support of the Army System of Systems initiative in both 
the ongoing SLAMRAAM and Patriot/MEADS Combined Aggregate Programs. The 
FY07 President's Budget request arrived at the Hill before the results 
of this decision could be taken into account. Would additional funding 
in FY07 assist the Army in accelerating its efforts to field a System 
of Systems Integrated Air & Missile Defense capability by 2011?
    General Dodgen. While adequate funds exists to meet the fielding of 
an Integrated Air and Missile Defense architecture by FY11, additional 
funding, if available, could be used to develop those unique and common 
components associated with attaining a more robust capability. 
Additional funding could be used to upgrade software of Patriot 
configuration-3 radars to ensure integration with a common Battle 
Manager, accelerate the Launch Station component to achieve the 
objective 2011 architecture and lastly, assist in the refinement and 
development of the common Battle Management architecture.

                                  <all>

</pre></body></html>
